NO. 20-843
In the

Supreme Court
of the United States
________________________
NEW YORK STATE RIFLE & PISTOL ASSOCIATION,
INC., ROBERT NASH, BRANDON KOCH,
Petitioners,
v.
KEVIN P. BRUEN, in His Official Capacity as
Superintendent of the New York State Police,
RICHARD J. MCNALLY, JR., in His Official Capacity
as Justice of the New York Supreme Court, Third
Judicial District, and Licensing Officer for
Rensselaer County,
Respondents.
________________________
On Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit
________________________

JOINT APPENDIX
________________________

LETITIA JAMES
PAUL D. CLEMENT
Attorney General, State of New York Counsel of Record
BARBARA DALE UNDERWOOD*
ERIN E. MURPHY
Solicitor General
KASDIN M. MITCHELL
NICHOLAS M. GALLAGHER
28 Liberty Street
KIRKLAND & ELLIS LLP
New York, NY 10005
1301 Pennsylvania Ave., NW
(212) 416-8016
Washington, DC 20004
barbara.underwood@ag.ny.gov
(202) 389-5000
*Counsel of Record
paul.clement@kirkland.com

Counsel for Respondents
July 13, 2021

KEVIN M. NEYLAN, JR.
KIRKLAND & ELLIS LLP
601 Lexington Ave.
New York, NY 10022
Counsel for Petitioners

Petition for Writ of Certiorari Filed December 17, 2020
Petition for Writ of Certiorari Granted April 26, 2021

JA i
TABLE OF CONTENTS
Docket Entries, United States Court of Appeals
for the Second Circuit, New York State Rifle
& Pistol Ass’n v. Beach .................................. JA-1
Docket Entries, United States District Court for
the Northern District of New York, New
York State Rifle & Pistol Ass’n v. Beach ..... JA-15
Complaint (N.D.N.Y. Jan. 31, 2018) .................. JA-27
Exhibit 1 to Complaint, Letter from R. Nash to
Hon. R. J. McNally, Jr. (Sept. 5, 2016) ....... JA-40
Exhibit 2 to Complaint, Letter from Hon. R. J.
McNally, Jr. to R. Nash (Nov. 1, 2016) ....... JA-41
Exhibit 3 to Complaint, Civil Cover Sheet ........ JA-42
Motion to Dismiss (March 26, 2018) .................. JA-45
Exhibit 1 to Motion to Dismiss, Memorandum
in Support (March 26, 2018) ....................... JA-47
Memorandum in Opposition to Motion to
Dismiss (May 7, 2018) ................................. JA-60
Reply to Response to Motion to Dismiss, Letter
from Assistant Attorney General of New
York to Judge B. K. Sannes
(May 14, 2018) ............................................. JA-93
Unopposed Motion for Leave to Amend
Complaint (May 15, 2018) ........................... JA-94
Affidavit of John D. Ohlendorf
(May 15, 2018) ............................................. JA-95
Proposed Amended Complaint
(May 15, 2018) ............................................. JA-97

JA ii
Exhibit 1 to Proposed Amended Complaint,
Letter from R. Nash to Hon. R. J. McNally,
Jr. (Sept. 5, 2016) .............. [reproduced at JA-40]
Exhibit 2 to Proposed Amended Complaint,
Letter from Hon. R. J. McNally, Jr. to R.
Nash (Nov. 1, 2016) ........... [reproduced at JA-41]
Exhibit 3 to Proposed Amended Complaint,
Letter from B. Koch to Hon. R. J. McNally,
Jr. .............................................................. JA-111
Exhibit 4 to Proposed Amended Complaint,
Letter from Hon. R. J. McNally, Jr. to B.
Koch (Jan. 16., 2018) ................................ JA-114
Amended Complaint (N.D.N.Y. May 16,
2018)........................................................... JA-115
The following opinions, decisions, judgments, and
orders have been omitted in printing this joint
appendix because they appear on the following page in
the appendix to the Petition for Certiorari:
Appendix A
Summary Order, United States Court of
Appeals for the Second Circuit, New York
State Rifle & Pistol Ass’n, Inc. v. Beach,
No. 19-156 (Aug. 26, 2020) .......................... App-1
Appendix B
Memorandum Decision and Order, United
States District Court for the Northern
District of New York, New York State Rifle &
Pistol Ass’n, Inc. v. Beach, No. 18-cv-00134
(Dec. 17, 2018) ............................................. App-3

JA iii
Appendix C
Relevant Constitutional and Statutory
Provisions................................................... App-14
U.S. Const. amend. II ............................ App-14
U.S. Const. amend. XIV, §1 .................. App-14
N.Y. Penal Law §400.00 ........................ App-14

JA 1
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________
No. 19-156
________________
NEW YORK STATE RIFLE & PISTOL ASSOCIATION, INC.,
ROBERT NASH, BRANDON KOCH,
Plaintiffs-Appellants,
v.
GEORGE P. BEACH, II, in his official capacity as
Superintendent of the New York State Police,
RICHARD J. MCNALLY, JR., in his official capacity as
Justice of the New York Supreme Court, Third
Judicial District, and Licensing Officer for
Rensselaer County,
Defendants-Appellees.
________________
RELEVANT DOCKET ENTRIES
Date Filed

#

Docket Text

01/15/2019

1

01/15/2019

2

NOTICE OF CIVIL APPEAL,
with district court docket, on
behalf of Appellant Brandon
Koch, Robert Nash, and New
York State Rifle & Pistol
Association,
Inc.,
FILED.
[2476131] [19-156] [Entered:
01/16/2019 09:59 AM]
DISTRICT
COURT
MEMORANDUM-DECISION
AND ORDER, dated 12/17/2018,
RECEIVED.[2476138] [19-156]
[Entered: 01/16/2019 10:01 AM]

JA 2
01/15/2019

3

DISTRICT
COURT
JUDGMENT, dated 12/17/2018,
RECEIVED.[2476141] [19-156]
[Entered: 01/16/2019 10:02 AM]
* * *

01/15/2019

5

ELECTRONIC INDEX, in lieu of
record, FILED.[2476144] [19156] [Entered: 01/16/2019 10:03
AM]
* * *

01/18/2019

14

FORM C, on behalf of Appellant
New York State Rifle & Pistol
Association, Inc., Robert Nash
and Brandon Koch, FILED.
Service date 01/18/2019 by
CM/ECF.[2478482]
[19-156]
[Entered: 01/18/2019 02:41 PM]

01/18/2019

15

FORM D, on behalf of Appellant
Brandon Koch, Robert Nash and
New York State Rifle & Pistol
Association, Inc., FILED. Service
date
01/18/2019
by
CM/ECF.[2478486]
[19-156]
[Entered: 01/18/2019 02:42 PM]
* * *

02/01/2019

33

MOTION, to extend time, on
behalf of Appellee George P.
Beach, II and Richard J.
McNally, Jr., FILED. Service
date 02/01/2019 by CM/ECF.
[2487848] [19-156] [Entered:
02/01/2019 04:56 PM]

JA 3

* * *
02/05/2019

37

MOTION ORDER, granting
motion to extend time to file
Appellees brief. The Appellant's
brief is due 03/20/2019 and
Appellees's
brief
is
due
04/24/2019. The appeal is
dismissed effective 03/20/2019
unless a brief is filed by that date.
A motion for reconsideration or
other relief will not stay the
effectiveness of this order. The
clerk is instructed to treat this
case as ready for calendaring as
of 04/24/2019 whether or not the
appellees' brief has been filed.
[33] filed by Appellee George P.
Beach, II and Richard J.
McNally, Jr., by RKW, FILED.
[2489662][37] [19-156] [Entered:
02/05/2019 01:34 PM]

03/20/2019

38

BRIEF, on behalf of Appellant
Brandon Koch, Robert Nash and
New York State Rifle & Pistol
Association, Inc., FILED. Service
date
03/20/2019
by
CM/ECF.[2522518]
[19-156]
[Entered: 03/20/2019 04:51 PM]

03/20/2019

39

JOINT APPENDIX, volume 1 of
1, (pp. 1-31), on behalf of
Appellant Brandon Koch, Robert
Nash and New York State Rifle &

JA 4
Pistol Association, Inc., FILED.
Service date 03/20/2019 by
CM/ECF.[2522526]
[19-156]
[Entered: 03/20/2019 04:55 PM]
04/24/2019

46

BRIEF, on behalf of Appellee
George P. Beach, II and Richard
J. McNally, Jr., FILED. Service
date 04/24/2019 by CM/ECF.
[2547812] [19-156] [Entered:
04/24/2019 09:02 PM]

04/30/2019

47

ORAL
ARGUMENT
STATEMENT LR 34.1 (a), on
behalf of filer Attorney Jennifer
L. Clark, Esq. for Appellee
George P. Beach, II and Richard
J. McNally, Jr., FILED. Service
date 04/30/2019 by CM/ECF.
[2551351] [19-156] [Entered:
04/30/2019 11:10 AM]
* * *

04/30/2019

50

ORAL
ARGUMENT
STATEMENT LR 34.1 (a), on
behalf of filer Attorney Jennifer
L. Clark, Esq. for Appellee
George P. Beach, II and Richard
J. McNally, Jr., FILED. Service
date 04/30/2019 by CM/ECF.
[2551744] [19-156] [Entered:
04/30/2019 02:21 PM]

04/30/2019

51

LETTER, on behalf of Appellee
George P. Beach, II and Richard
J. McNally, Jr., only schedule

JA 5
oral argument in this case after
final Supreme Court in the New
York City case RECEIVED.
Service date 04/30/2019 by
CM/ECF.[2551747]
[19-156]-[Edited 05/01/2019 by WD]
[Entered: 04/30/2019 02:23 PM]
05/01/2019

52

DEFECTIVE
DOCUMENT,
Letter, [51], on behalf of Appellee
George P. Beach, II and Richard
J. McNally, Jr., FILED.[2552334]
[19-156] [Entered: 05/01/2019
09:04 AM]
* * *

05/01/2019

60

AMICUS BRIEF, on behalf of
Prosecutors
Against
Gun
Violence, FILED. Service date
05/01/2019
by
CM/ECF.
[2553363]
[19-156]--[Edited
05/02/2019 by WD] [Entered:
05/01/2019 05:07 PM]
* * *

05/01/2019

62

AMICUS BRIEF, on behalf of
Giffords Law Center to Prevent
Gun Violence, FILED. Service
date 05/01/2019 by CM/ECF.
[2553413]
[19-156]--[Edited
05/02/2019
by
WD]--[Edited
05/08/2019 by WD] [Entered:
05/01/2019 07:25 PM]

05/01/2019

63

AMICUS BRIEF, on behalf of
Professors of History and Law,

JA 6
FILED. Service date 05/01/2019
by CM/ECF. [2553428] [19-156]-[Edited 05/02/2019 by WD]
[Entered: 05/01/2019 10:04 PM]
* * *
05/02/2019

68

LETTER, on behalf of Appellee
George P. Beach, II and Richard
J. McNally, Jr., notify the Court
of U.S. Supreme Court action.
RECEIVED.
Service
date
05/02/2019
by
CM/ECF.[2553845]
[19-156]-[Edited 05/02/2019 by WD]
[Entered: 05/02/2019 11:46 AM]
* * *

05/08/2019

75

REPLY BRIEF, on behalf of
Appellant Brandon Koch, Robert
Nash and New York State Rifle &
Pistol Association, Inc., FILED.
Service date 05/08/2019 by
CM/ECF. [2558651] [19-156]
[Entered: 05/08/2019 10:29 AM]

05/08/2019

76

ORAL
ARGUMENT
STATEMENT LR 34.1 (a), on
behalf of filer Attorney David
Thompson, Esq. for Appellant
Brandon Koch, Robert Nash and
New York State Rifle & Pistol
Association, Inc., FILED. Service
date 05/08/2019 by CM/ECF.
[2558656] [19-156] [Entered:
05/08/2019 10:30 AM]

JA 7
05/16/2019

82

CURED
DEFECTIVE
DOCUMENT: Letter, [52], on
behalf of Appellee George P.
Beach, II and Richard J.
McNally, Jr., FILED.[2565222]
[19-156] [Entered: 05/16/2019
09:23 AM]

06/06/2019

83

CASE CALENDARING, for the
week of 10/21/2019, PANEL A,
PROPOSED.[2581505] [19-156]
[Entered: 06/06/2019 12:15 PM]

08/13/2019

84

CASE
CALENDARING,
for
argument on 10/24/2019, A
Panel, SET.[2630873] [19-156]
[Entered: 08/13/2019 11:54 AM]
* * *

08/15/2019

87

ARGUMENT
NOTICE,
to
attorneys/parties,
TRANSMITTED.[2632692] [19156] [Entered: 08/15/2019 09:35
AM]

08/28/2019

89

ORDER,
dated
08/28/2019,
adjourning oral argument set for
Thursday, October 24, 2019, A
Panel
and
directing
the
Appellants to notify the Court, by
letter, of the Supreme Court's
decision in New York State Rifle
& Pistol Association, Inc. v. City
of New York, Sup. Ct. No. 18-280,
within 7 days of the issuance of
that decision, FILED.[2642478]

JA 8
[19-156] [Entered:
11:05 AM]

08/28/2019

* * *
09/12/2019

95

LETTER, on behalf of Appellant
Brandon Koch, Robert Nash and
New York State Rifle & Pistol
Association, Inc. Attorney David
H. Thompson, Peter A. Patterson
and
John
D.
Ohlendorf,
withdrawing as counsel for
Appellants, RECEIVED. Service
date
09/12/2019
by
CM/ECF.[2653508]
[19-156]-[Edited 09/12/2019 by WD]
[Entered: 09/12/2019 09:50 AM]
* * *

05/04/2020 103 LETTER, on behalf of Appellant
New York State Rifle & Pistol
Association, Inc., Robert Nash
and Brandon Koch, notifying,
this Court that a decision was
issued by the Supreme Courtt on
04/27/2020 RECEIVED. Service
date
05/04/2020
by
CM/ECF.[2831304]
[19-156]-[Edited 05/04/2020 by WD]-[Edited 05/04/2020 by WD]-[Edited 05/04/2020 by WD]
[Entered: 05/04/2020 01:56 PM]
ARGUMENT
05/18/2020 108 ORAL
STATEMENT LR 34.1 (a), on
behalf of filer Attorney Mr. John

JA 9
Parker
Sweeney,
Esq.
for
Appellant Brandon Koch, Robert
Nash and New York State Rifle &
Pistol Association, Inc., FILED.
Service date 05/18/2020 by
CM/ECF. [2841927] [19-156]
[Entered: 05/18/2020 06:07 PM]
05/21/2020 110 CASE CALENDARING, for the
week
of
08/17/2020,
PROPOSED.[2845259] [19-156]
[Entered: 05/21/2020 04:12 PM]
05/22/2020 111 LETTER, on behalf of Appellee
George P. Beach, II and Richard
J. McNally, Jr., in response to
Appellant's
letter
dated
05/04/2020 RECEIVED. Service
date
05/22/2020
by
CM/ECF.[2845873]
[19-156]-[Edited 05/22/2020 by WD]
[Entered: 05/22/2020 12:24 PM]
ARGUMENT
05/22/2020 112 ORAL
STATEMENT LR 34.1 (a), on
behalf of filer Attorney Jennifer
L. Clark, Esq. for Appellee
George P. Beach, II and Richard
J. McNally, Jr., FILED. Service
date 05/22/2020 by CM/ECF.
[2845890] [19-156] [Entered:
05/22/2020 12:38 PM]
06/08/2020 114 LETTER, on behalf of Appellee
George P. Beach, II and Richard
J. McNally, Jr., dates unavailable
for oral argument, RECEIVED.

JA 10
Service date 06/08/2020 by
CM/ECF.[2857020]
[19-156]-[Edited 06/09/2020 by WD]
[Entered: 06/08/2020 05:18 PM]
06/15/2020 117 LETTER, on behalf of Appellee
George P. Beach, II and Richard
J. McNally, Jr., the dates
unavailable and available for oral
argument, RECEIVED. Service
date
06/15/2020
by
CM/ECF.[2862673]
[19-156]-[Edited 06/16/2020 by WD]
[Entered: 06/15/2020 11:09 PM]
06/16/2020 121 LETTER, on behalf of Appellant
Brandon Koch, Robert Nash and
New York State Rifle & Pistol
Association, Inc., in response to
Appellee's
letter
to
the
availability for oral argument
and Appellant's availabilty to
oral argument, RECEIVED.
Service date 06/16/2020 by
CM/ECF.[2863769]
[19-156]-[Edited 06/17/2020 by WD]
[Entered: 06/16/2020 07:08 PM]
CALENDARING,
for
07/01/2020 124 CASE
argument
on
08/17/2020,
SET.[2875389]
[19-156]
[Entered: 07/01/2020 11:17 AM]
NOTICE,
to
07/09/2020 126 ARGUMENT
attorneys/parties,
TRANSMITTED. Note: Listed
counsel must log on to CM/ECF

JA 11
in order to view the attachment.
[2881331] [19-156] [Entered:
07/10/2020 09:49 AM]
07/13/2020 127 NOTICE OF HEARING DATE
ACKNOWLEDGMENT,
on
behalf of Appellant Brandon
Koch, Robert Nash and New York
State Rifle & Pistol Association,
Inc., FILED. Service date
07/13/2020 by CM/ECF. Note:
Listed counsel must log on to
CM/ECF in order to view the
attachment. [2883067] [19-156]
[Entered: 07/13/2020 01:51 PM]
07/13/2020 128 NOTICE OF HEARING DATE
ACKNOWLEDGMENT,
on
behalf of Appellee George P.
Beach, II and Richard J.
McNally, Jr., FILED. Service
date 07/13/2020 by CM/ECF.
Note: Listed counsel must log on
to CM/ECF in order to view the
attachment. [2883391] [19-156]
[Entered: 07/13/2020 04:50 PM]
ARGUMENT
08/12/2020 129 REVISED
NOTICE, to attorneys/parties,
TRANSMITTED. Note: Listed
counsel must log on to CM/ECF
in order to view the attachment.
[2905743] [19-156] [Entered:
08/12/2020 09:25 AM]
08/12/2020 130 NOTICE OF HEARING DATE
ACKNOWLEDGMENT,
on

JA 12
behalf of Appellant Brandon
Koch, Robert Nash and New York
State Rifle & Pistol Association,
Inc., FILED. Service date
08/12/2020 by CM/ECF. Note:
Listed counsel must log on to
CM/ECF in order to view the
attachment. [2906669] [19-156]
[Entered: 08/12/2020 06:25 PM]
08/13/2020 131 NOTICE OF HEARING DATE
ACKNOWLEDGMENT,
on
behalf of Appellee George P.
Beach, II and Richard J.
McNally, Jr., FILED. Service
date 08/13/2020 by CM/ECF.
Note: Listed counsel must log on
to CM/ECF in order to view the
attachment. [2906834] [19-156]
[Entered: 08/13/2020 09:53 AM]
08/13/2020 132 FRAP 28(j) LETTER, dated
08/13/2020, on behalf of Appellee
George P. Beach, II and Richard
J. McNally, Jr., RECEIVED.
Service date 08/13/2020 by
CM/ECF.[2907027]
[19-156]
[Entered: 08/13/2020 11:26 AM]
08/13/2020 135 FRAP 28(j) LETTER, dated
08/13/2020,
on
behalf
of
Appellant Brandon Koch, Robert
Nash and New York State Rifle &
Pistol
Association,
Inc.,
RECEIVED.
Service
date
08/13/2020
by

JA 13
CM/ECF.[2907813]
[19-156]
[Entered: 08/13/2020 06:06 PM]
08/17/2020 138 CASE, before JON, RSP, PWH,
HEARD.[2909311]
[19-156]
[Entered: 08/17/2020 10:26 AM]
* * *
ORDER
AND
08/26/2020 141 SUMMARY
JUDGMENT,
affirming
the
district court judgment, by JON,
RSP, PWH, FILED.[2916688]
[19-156] [Entered: 08/26/2020
09:00 AM]
ORDER
AND
08/26/2020 142 SUMMARY
JUDGMENT, the judgment of
the district court is affirmed, by
JON,
RSP,
PWH,
FILED.[2916689]
[19-156]
[Entered: 08/26/2020 09:00 AM]
09/08/2020 145 ITEMIZED BILL OF COSTS, on
behalf of Appellee George P.
Beach, II and Richard J.
McNally, Jr., FILED. Service
date
09/08/2020
by
CM/ECF.[2925795]
[19-156]
[Entered: 09/08/2020 04:34 PM]
MANDATE,
09/16/2020 147 JUDGMENT
ISSUED.[2932232]
[19-156]
[Entered: 09/16/2020 01:22 PM]
09/16/2020 148 LETTER, on behalf of Appellant
Brandon Koch, Robert Nash and
New York State Rifle & Pistol
Association, Inc., stating no

JA 14
objection to itemized bill of costs,
RECEIVED.
Service
date
09/16/2020
by
CM/ECF.[2932573]
[19-156]-[Edited 09/17/2020 by AJ]
[Entered: 09/16/2020 05:04 PM]
09/17/2020 151 STATEMENT OF COSTS, on
behalf of Appellee George P.
Beach, II and Richard J.
McNally, Jr., FILED.[2933031]
[19-156] [Entered: 09/17/2020
11:29 AM]
09/17/2020 152 CERTIFIED ORDER, dated
09/17/2020,
to
NDNY
(SYRACUSE),
ISSUED.[2933039]
[19-156]
[Entered: 09/17/2020 11:32 AM]
SUPREME
COURT
12/28/2020 153 U.S.
NOTICE of writ of certiorari
filing, dated 12/23/2020, U.S.
Supreme Court docket # 20-843,
RECEIVED.[3001826] [19-156]
[Entered: 12/28/2020 08:47 PM]
SUPREME
COURT
04/26/2021 154 U.S.
NOTICE, dated 04/26/2021, U.S.
Supreme Court docket # 20-843,
stating the petition for writ of
certiorari
is
granted,
RECEIVED.[3086999] [19-156]
[Entered: 04/26/2021 05:13 PM]

JA 15
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF NEW YORK
________________
No. 18-CV-0134-BKS-ATB
________________
NEW YORK STATE RIFLE & PISTOL ASSOCIATION, INC.,
ROBERT NASH, BRANDON KOCH,
Plaintiffs,
v.
GEORGE P. BEACH, II, in his official capacity as
Superintendent of the New York State Police,
RICHARD J. MCNALLY, JR., in his official capacity as
Justice of the New York Supreme Court, Third
Judicial District, and Licensing Officer for
Rensselaer County,
Defendants.
________________
RELEVANT DOCKET ENTRIES
Date Filed

#

Docket Text

02/01/2018

1

COMPLAINT
FOR
DECLARATORY
AND
INJUNCTIVE RELIEF against
George P. Beach, III and
Richard J. McNally, Jr. (Filing
fee $400 receipt number
ANYNDC-4273520) filed by
New York State Rifle & Pistol
Association, Inc. and Robert
Nash.
(Attachments:
# 1 Exhibit(s) 1, # 2 Exhibit(s)

JA 16
2, # 3 Civil Cover Sheet)(see)
(Entered: 02/02/2018)
02/01/2018

2

Summonses Issued as to
George P. Beach, III and
Richard J.
McNally, Jr.
(Attachments:
# 1 Summons
for Richard J.
McNally,
Jr.)(see) (Entered: 02/02/2018)

02/01/2018

3

02/01/2018

4

02/01/2018

5

G.O. 25 FILING ORDER
ISSUED: Initial Conference set
for 5/2/2018 at 10:00 AM by
telephone, unless the parties
are specifically directed to
appear, before US Magistrate
Judge Andrew T. Baxter. Civil
Case Management Plan must
be
filed and
Mandatory
Disclosures are to be exchanged
by the parties on or before
4/25/2018. (Pursuant to Local
Rule
26.2,
mandatory
disclosures are to be exchanged
among the parties but are NOT
to be filed with the Court.) (see)
(Entered: 02/02/2018)
FRCP
7.1
CORPORATE
DISCLOSURE STATEMENT
by New York State Rifle &
Pistol Association, Inc. (see)
(Entered: 02/02/2018)
NOTICE
of
Admission
Requirement as to Party
Plaintiffs; Attorneys David H.

JA 17

02/05/2018

9

02/05/2018

10

Thompson, Peter A. Patterson,
and John D. Ohlendorf. Phone
number
is
202-220-9600.
Admissions due by 2/15/2018.
(Letter mailed by regular mail
on 2/1/2018 to all three
attorneys)(see)
(Entered:
02/02/2018)
* * *
AFFIDAVIT of Service for
Summons, Complaint, Filing
Order, Corporate Disclosure
Statement served on George P.
Beach, II, via Maureen Price,
Counsel's Office/Designated to
Accept on 2/2/18, filed by
Robert Nash, New York State
Rifle & Pistol Association, Inc..
(Baynes, Kathleen) (Entered:
02/05/2018)
AFFIDAVIT of Service for
Summons, Complaint, Filing
Order, Corporate Disclosure
Statement served on Richard J.
McNally, Jr. on 2/2/18, filed by
Robert Nash, New York State
Rifle & Pistol Association, Inc..
(Baynes, Kathleen) (Entered:
02/05/2018)
***Answer due date updated
for George P. Beach, III answer
due 2/23/2018; Richard J.
McNally, Jr. answer due

JA 18

02/07/2018

11

2/23/2018.
(see)
(Entered:
02/06/2018)
TEXT ORDER: granting 6, 7
and 8 Motions for Limited
Admission Pro Hac Vice.
Attorneys David H. Thompson,
John D. Ohlendorf and Peter A.
Patterson are hereby admitted
to practice in this action on
behalf of New York State Rifle
& Pistol Association, Inc. and
Robert Nash. Counsel is hereby
advised that as of January 16,
2018, the NYND has converted
to NextGen. Due to this
conversion, you must now
register for Pro Hac Vice access
through
your
PACER
account. This is the only
notice you will receive
concerning
this
requirement. You will not
have
access
to
electronically file in this
case until your Pro Hac Vice
request has been processed
through
the
PACER
system. Step-by-step
instructions on how to complete
this process are available at
http://www.nynd.uscourts.gov/
attorney-admissions-nextgen;.
So Ordered by U.S. Magistrate
Judge Andrew T. Baxter on

JA 19

02/08/2018

13

02/09/2018

18

03/26/2018

19

2/7/2018.
(nmk)
(Entered:
02/07/2018)
* * *
Letter Motion from Kelly L.
Munkwitz for George P. Beach,
III, Richard J. McNally, Jr.
requesting an extention of time
to respond to the complaint
submitted to Judge Andrew T.
Baxter . (Munkwitz, Kelly)
(Entered: 02/08/2018)
* * *
TEXT ORDER: granting 13
Letter Request. The deadline
for George P. Beach, III and
Richard J. McNally, Jr. to
answer or otherwise respond to
the complaint is extended to
3/26/2018. So Ordered by U.S.
Magistrate Judge Andrew T.
Baxter on 2/9/2018. (nmk)
(Entered: 02/09/2018)
MOTION to Dismiss for Failure
to State a Claim Motion
Hearing set for 5/3/2018 10:00
AM in Syracuse before Judge
Brenda K. Sannes Response to
Motion due by 4/16/2018 Reply
to Response to Motion due by
4/23/2018. filed by George P.
Beach, III, Richard J. McNally,
Jr..
(Attachments:
# 1 Exhibit(s) in Support of

JA 20

03/29/2018

20

04/01/2018

23

Motion to Dismiss) (Munkwitz,
Kelly) (Entered: 03/26/2018)
TEXT ORDER: The Rule 16
conference set for 5/2/2018 and
4/25/2018 deadline for the
submission of a joint Civil Case
Management
Plan
and
exchange
of
Mandatory
Disclosures are ADJOURNED
WITHOUT DATE. The hearing
and related deadlines will be
reset, if deemed necessary,
after
disposition
of
the 19 motion to dismiss. So
Ordered by U.S. Magistrate
Judge Andrew T. Baxter on
3/29/2018. (nmk) (Entered:
03/29/2018)
* * *
Consent MOTION for Leave to
File Amicus Brief in Supportof
Defendants' Motion to Dismiss
the
Complaint filed
by
Everytown for Gun Safety.
(Attachments:
# 1 Consent
Motion of Everytown for Gun
Safety for Leave to Participate
as
Amicus
Curiae,
# 2 Declaration Declaration in
Support of Everytown for Gun
Safety's Motion for Leave to
Participate as Amicus Curiae,
# 3 Exhibit(s) Memorandum of
Everytown for Gun Safety as

JA 21

04/03/2018

24

Amicus Curiae in Support of
Defendants,
# 4 Exhibit(s)
[Proposed] Order Granting
Motion of Everytown for Gun
Safety for Leave to Participate
as Amicus Curiae) Motions
referred to Andrew T. Baxter.
(Maazel,
Ilann)
(Entered:
04/02/2018)
TEXT ORDER: The motion of
Everytown for Gun Safety
(Everytown) for leave to
participate
as
amicus
curiae 23 is GRANTED. Since
Everytown seeks to provide
historical analysis regarding
firearms laws to assist the
Court
in
resolving
the
Plaintiffs'
constitutional
challenge to a New York State
firearms licensing law; the
parties
consent
to
the
participation of Everytown as
amicus curiae; and the motion
was filed shortly after the
Defendants' motion to dismiss,
the Court finds that the
information offered is timely
and useful. See United States v.
Heleniak, No. 14-CR-42A, 2015
WL 4208622, at *4, 2015 U.S.
Dist. LEXIS 89728, at *9
(W.D.N.Y. July 10, 2015);
Avitabile v. Beach, 277 F.Supp.

JA 22

04/03/2018

04/03/2018

25

3d 326, 330 (N.D.N.Y. 2017).
Everytown is directed to file on
the docket its Memorandum,
which is currently attached to
its motion as Exhibit 3 ( 23 -3).
The deadline for further
briefing is extended to give the
parties time to respond to
Everytown's
memorandum.
The Response to Defendants'
motion is due by 5/7/18 and the
Reply is due by 5/14/18. SO
ORDERED by Judge Brenda K.
Sannes
on
4/3/18.
(rjb,)
(Entered: 04/03/2018)
Reset Deadlines as to 19
MOTION to Dismiss for Failure
to State a Claim - Response to
Motion due by 5/7/2018; Reply
to Response to Motion due by
5/14/2018. Motion will be heard
on submission of the papers
unless otherwise directed by
the Court. (rjb,) (Entered:
04/03/2018)
MEMORANDUM OF LAW
re 19 Motion to Dismiss for
Failure to State a Claim, As
Amicus Curiae in Support of
Defendants filed by Everytown
for Gun Safety. (Attachments:
# 1 Appendix
Appendix
of
Historical Gun Las of Amicus
Curiae Everytown for Gun

JA 23

05/07/2018

26

05/14/2018

27

05/15/2018

28

05/15/2018

29

Safety)(Maazel,
Ilann)
(Entered: 04/03/2018)
MEMORANDUM OF LAW
re 19 Motion to Dismiss for
Failure to State a Claim, filed
by Robert Nash, New York
State Rifle & Pistol Association,
Inc..
(Baynes,
Kathleen)
(Entered: 05/07/2018)
REPLY to Response to Motion
re 19 MOTION to Dismiss for
Failure to State a Claim filed
by George P. Beach, III,
Richard J. McNally, Jr..
(Munkwitz, Kelly) (Entered:
05/14/2018)
MOTION to Amend/Correct
Complaint Motion Hearing set
for 6/28/2018 09:30 AM in
Syracuse before US Magistrate
Judge Andrew T. Baxter
Response to Motion due by
6/11/2018 filed by Robert Nash,
New York State Rifle & Pistol
Association,
Inc..
(Attachments: # 1 Affidavit, # 2
Proposed Amended Pleading, #
3 Exhibit(s), # 4 Memorandum
of Law) Motions referred to
Andrew T. Baxter. (Baynes,
Kathleen)
(Entered:
05/15/2018)
Letter Motion from Kathleen
McCaffrey Baynes, Esq. for

JA 24

05/16/2018

30

05/16/2018

31

Robert Nash, New York State
Rifle & Pistol Association, Inc.
requesting Leave to Amend
Complaint submitted to Judge
Baxter . (Baynes, Kathleen)
(Entered: 05/15/2018)
TEXT ORDER: GRANTING
28 plaintiff's
motion
to
amend/join plaintiff and 29
plaintiff's
letter
motion.
Defendants, reportedly, do not
object to the motion to amend
and join an additional plaintiff.
By agreement of the parties
and without objection of this
court, 19 defendants' motion to
dismiss shall apply to the
complaint as amended and the
new plaintiff, without the need
to re-file the motion to dismiss
or any of the subsequently-filed
briefs, or the need of the new
plaintiff to file any further
opposition to the motion to
dismiss. So Ordered by U.S.
Magistrate Judge Andrew T.
Baxter on 5/16/2018. (nmk)
(Entered: 05/16/2018)
AMENDED
COMPLAINT
against All Defendants filed by
New York State Rifle & Pistol
Association, Inc., Robert Nash,
Brandon
Koch.(Baynes,

JA 25

05/17/2018

12/17/2018

32

12/17/2018

33

01/15/2019

34

Kathleen)
(Entered:
05/16/2018)
***Answer due date updated
for George P. Beach, II answer
due 5/30/2018; Richard J.
McNally, Jr. answer due
5/30/2018. As noted in the 30
Text Order, defts' motion to
dismiss shall apply to the
complaint as amended and the
new pltf, without the need to refile the motion. (see) (Entered:
05/17/2018)
ORDER granting 19 Motion to
Dismiss for Failure to State a
Claim and dismissing the 31
Amended
Complaint
with
prejudice. Signed by Judge
Brenda
K.
Sannes
on
12/17/2018. (rjb,) (Entered:
12/17/2018)
JUDGMENT in favor of George
P. Beach, II, Richard J.
McNally, Jr. against New York
State Rifle & Pistol Association,
Inc., Brandon Koch, Robert
Nash.
(rjb,)
(Entered:
12/17/2018)
NOTICE OF APPEAL as to 33
Judgment, 32 Order on Motion
to Dismiss for Failure to State a
Claim by
Brandon
Koch,
Robert Nash, New York State
Rifle & Pistol Association, Inc..

JA 26

01/15/2019

35

09/17/2020

09/17/2020

36

09/17/2020

37

Filing fee $ 505, receipt number
ANYNDC-4618401.
(Attachments: # 1 Exhibit(s)
Memorandum-Decision
and
Order, # 2 Exhibit(s) Judgment
in a Civil Case)(Baynes,
Kathleen)
(Entered:
01/15/2019)
ELECTRONIC NOTICE AND
CERTIFICATION sent to US
Court of Appeals re 34 Notice of
Appeal. (Attachments: # 1 Civil
Appeals
Packet)(hmr)
(Entered: 01/15/2019)
USCA Case Number 19-156
for 34 Notice of Appeal, filed by
Brandon Koch, New York State
Rifle & Pistol Association, Inc.,
Robert Nash. (see) (Entered:
09/17/2020)
MANDATE of USCA (issued on
9/16/2020)
affirming
the
judgment of the District Court,
as to 34 Notice of Appeal. (see)
(Entered: 09/17/2020)
USCA
STATEMENT
OF
COSTS: taxed in the amount of
$135.00 in favor of the
appellees.
(see)
(Entered:
09/17/2020)

JA 27
Complaint (N.D.N.Y. Jan. 31, 2018)
Plaintiffs New York State Rifle & Pistol
Association, Inc., and Robert Nash (collectively
“Plaintiffs”), by and through the undersigned
attorneys, file this Complaint against the abovecaptioned Defendants, in their official capacities as
state and local officials responsible under New York
law for administering and enforcing the State’s laws
and regulations governing the carrying of firearms
outside the home. Plaintiffs seek declaratory and
injunctive relief: a declaration that New York’s
limitation of the right to carry firearms to those who
can satisfy licensing officials that they have “proper
cause” to exercise that right is unconstitutional under
the Second and Fourteenth Amendments to the
United States Constitution, and an injunction
compelling Defendants to refrain from enforcing that
invalid limit and to issue Handgun Carry Licenses to
Plaintiffs or to otherwise allow Plaintiffs to exercise
their right to carry firearms outside the home. In
support of their Complaint against Defendants,
Plaintiffs hereby allege as follows:
INTRODUCTION
1. The Second Amendment to the United States
Constitution guarantees “the right of the people to
keep and bear Arms.” U.S. CONST. amend. II. When
the People, by enacting that amendment, enshrined in
their fundamental charter the right to “carry weapons
in case of confrontation” for the “core lawful purpose
of self-defense,” District of Columbia v. Heller, 554
U.S. 570, 592, 630 (2008), they did not mean to leave
the freedom to exercise that right at the mercy of the

JA 28
very government officials whose hands they sought to
bind. No, “[t]he very enumeration of the right takes
out of the hands of government ... the power to decide
on a case-by-case basis whether the right is really
worth insisting upon.” Id. at 634.
2. In defiance of that constitutional guarantee,
New York has seized precisely the power forbidden it
by the Second Amendment: the power to decide, on a
case-by-case basis, whether an applicant for a license
to “carry weapons in case of confrontation,” id. at 592,
has, in its estimation, shown sufficiently “proper
cause” that a license should be issued, N.Y. PENAL
LAW §400.00(2)(f).
3. Worse still, New York has made clear that a
general desire to carry a handgun for the purpose of
self-defense—“the central component” of the Second
Amendment, Heller, 554 U.S. at 599 (emphasis
added)—is not a sufficiently good reason to exercise
the right. Instead, according to New York, an ordinary
citizen must establish a special need for self-defense
which sets him apart from the general public to obtain
a license from the State to carry a firearm in public for
the purpose of self-defense. That restriction is akin to
a state law concluding that the general desire to
advocate for lawful political change is not sufficient
“proper cause” to exercise the right to free speech, and
it cuts to the very core of the Second Amendment, no
less than such a restriction would gut the First.
4. Indeed, the practical effect of New York’s
“proper cause” requirement is to make it wholly illegal
for typical law-abiding citizens to carry handguns in
public for the purpose of self-defense—for by

JA 29
definition, these ordinary citizens cannot show that
they face a special danger to their safety.
5. Plaintiff Robert Nash is an ordinary, lawabiding citizen of New York who wishes to carry a
firearm outside the home for the purpose of selfdefense. He has passed all required background
checks and met every other qualification imposed by
New York on the eligibility for a license to carry a
firearm in public for self-defense—except that like the
vast majority of ordinary, law-abiding New York
residents, he cannot establish a special need for selfprotection that is distinct from the general desire for
self-defense.
Accordingly,
Defendant
McNally
determined that Robert Nash has not shown “proper
cause” to exercise his Second Amendment rights, and
he refused to grant him a license to carry a firearm
outside the home for self-defense. That result simply
cannot be squared with the rights guaranteed by the
Second Amendment.
6. Plaintiffs acknowledge that the result they seek
is contrary to Kachalsky v. County of Westchester, 701
F.3d 81 (2d Cir. 2012), but, for the reasons explained
in Wrenn v. District of Columbia, 864 F.3d 650 (D.C.
Cir. 2017), that case was wrongly decided. They
therefore institute this litigation to vindicate their
Second Amendment rights and to seek to have
Kachalsky overruled.
JURISDICTION AND VENUE
7. This Court has subject-matter jurisdiction over
Plaintiffs’ claim under 28 U.S.C. §§1331 and 1343.

JA 30
8. Plaintiffs seek remedies under 28 U.S.C.
§§1651, 2201, and 2202 and 42 U.S.C. §§1983 and
1988.
9. Venue is proper in this Court under 28 U.S.C.
§1391(b)(1) & (b)(2).
PARTIES
10. Plaintiff Robert Nash is a citizen of the United
States and a resident and citizen of the State of New
York. He resides in Averill Park, NY 12018.
11. Plaintiff New York State Rifle & Pistol
Association, Inc. (“NYSRPA”) is a group organized to
support and defend the right of New York residents to
keep and bear arms. The New York restrictions on the
public carrying of firearms at issue in this case are
thus a direct affront to NYSRPA’s central mission.
NYSRPA has thousands of members who reside in
New York. Its official address is 90 S. Swan Street,
Suite 395, Albany, New York 12210. Plaintiff Robert
Nash is a member of NYSRPA. Mr. Nash is one among
many NYSRPA members who have been and continue
to be denied the right to carry a firearm outside of the
home for the sole reason that they cannot satisfy the
State’s “proper cause” requirement.
12. Defendant George P. Beach II is the
Superintendent of the New York State Police. As
Superintendent, he exercises, delegates, or supervises
all the powers and duties of the New York Division of
State Police, which is responsible for executing and
enforcing New York’s laws and regulations governing
the carrying of firearms in public, including
prescribing the form for Handgun Carry License

JA 31
applications. His official address is New York State
Police, 1220 Washington Avenue, Building 22, Albany,
NY 12226. He is being sued in his official capacity.
13. Defendant Richard J. McNally, Jr., is a Justice
of the New York Supreme Court, Third Judicial
District, and a Licensing Officer for Rensselaer
County under N.Y. PENAL LAW §400.00. Pursuant to
N.Y. PENAL LAW §265.00(10), he is responsible for
receiving applications from residents of Rensselaer
County for a license to carry a handgun, investigating
the applicant, and either approving or denying the
application. His official address is Rensselaer County
Courthouse, 80 Second Street, Troy, NY 12180. He is
being sued in his official capacity as a State Licensing
Officer.
FACTUAL ALLEGATIONS
New York’s “Proper Cause” Requirement
14. New York law generally forbids any person to
“possess[ ] any firearm,” N.Y. PENAL LAW §265.01(1),
without first obtaining “a license therefor,” id.
§265.20(a)(3). Violating this ban is a class A
misdemeanor, punishable by a fine of $1,000 or less or
up to a year in prison. Id. §§70.15(1), 80.05(1), 265.01.
Possessing a loaded firearm without a license is a class
C felony, punishable by a fine of up to $5,000 or
between one and fifteen years imprisonment. Id.
§§70.00(2)(c) & (3)(b), 80.00(1), 265.03.
15. New York’s ban is subject to minor exceptions
for active duty members of the military, police officers,
and the like. Id. §265.20. An ordinary member of the
general public who wishes to carry a handgun outside

JA 32
the home for purposes of self-protection, however, can
only do so if he obtains a license to “have and carry [a
handgun] concealed” (a “Handgun Carry License”),
pursuant to Section 400.00(2)(f) of New York’s Penal
Law. A person seeking such a license must submit an
application—on a form approved by Defendant
Beach—to the Licensing Officer for the city or county
where he resides. Id. §400.00(3)(a). No license is
available to authorize the carrying of handguns within
the State openly.
16. To be eligible for a Handgun Carry License, an
applicant must satisfy numerous criteria. For
example, he must be at least 21 years old, must not
have been convicted of any felony or serious offense,
must not be an unlawful user of a controlled
substance, and must not have a history of mental
illness. Id. §400.00(1). Before issuing a license, the
Licensing Officer must conduct a rigorous
investigation and background check, to verify that
each of these statutory requirements is satisfied. Id.
§400.00(4).
17. In addition to these rigorous eligibility and
screening requirements, a law-abiding citizen may
only be granted a Handgun Carry License if he
demonstrates that “proper cause exists for the
issuance thereof.” Id. §400.00(2)(f).
18. In granting a license, some Licensing Officers
note certain restrictions on the license, such as
“hunting and target.” In Rensselaer County, for
instance, Licensing Officials routinely grant licenses
that are marked “hunting and target,” and that they
refer to as “restricted licenses.” These licenses allow

JA 33
the licensee to carry a firearm only when engaged in
those specified activities. Such a license does not
permit the carrying of a firearm in public for the
purpose of self-defense.
19. While New York law grants local Licensing
Officials some discretion in determining what
constitutes “proper cause” for issuance of an
unrestricted Handgun Carry License, this discretion
is cabined by the significant body of New York caselaw defining that term. The courts have determined,
for instance, that “[a] generalized desire to carry a
concealed weapon to protect one’s person and property
does not constitute ‘proper cause.’ ”Application of
O’Connor, 585 N.Y.S.2d 1000, 1003 (N.Y. Co. Ct.
1992). They have further clarified that merely
traveling through “high crime areas … is too vague to
constitute ‘proper cause’ within the meaning of Penal
Law §400.02(f),” Martinek v. Kerik, 743 N.Y.S.2d 80,
81 (1st Dep’t 2002), and that instead an applicant
must “demonstrate a special need for self-protection
distinguishable from that of the general community or
of persons engaged in the same profession,” Klenosky
v. New York City Police Dep’t, 428 N.Y.S.2d 256, 257
(1st Dep’t 1980), aff’d, 53 N.Y.2d 685 (1981).
20. Accordingly, typical law-abiding citizens of
New York—the vast majority of responsible citizens
who cannot “demonstrate a special need for selfprotection distinguishable from that of the general
community,” id.—effectively remain subject to a flat
ban on carrying handguns outside the home for the
purpose of self-defense.

JA 34
Defendant’s Refusal to Issue Plaintiffs
Handgun Carry Licnses
21. Plaintiff Robert Nash is an adult citizen and
resident of New York. He is not a law enforcement
official or a member of the armed forces, and he does
not fall within any of the other exceptions enumerated
in N.Y. PENAL LAW §265.20 to New York’s ban on
carrying firearms in public.
22. Mr. Nash does, however, possess all of the
qualifications necessary to obtain a Handgun Carry
License that are enumerated in N.Y. PENAL LAW
§400.00(1). For example, he is over 21 years of age, he
has not been convicted of any felony or other serious
offense, and he is not addicted to controlled substances
or mentally infirm. He has also passed all required
background checks.
23. Mr. Nash does not face any special or unique
danger to his life. He does, however, desire to carry a
handgun in public for the purpose of self-defense. Mr.
Nash lawfully owns several handguns which he keeps
in his home to defend himself and his family, and he
would carry a handgun for self-defense when he is in
public, were it not for Defendants’ enforcement of New
York’s ban on the public carrying of firearms. Mr.
Nash is not entitled to a Handgun Carry License by
virtue of his occupation, pursuant to Penal Law
§400.00(2)(b)-(e).
24. In or around September 2014, Mr. Nash
applied to the Licensing Officer for the county where
he resides, Rensselaer County, for a license to carry a
handgun in public. After investigation, Mr. Nash’s

JA 35
application was granted on March 12, 2015, but he
was issued a license marked “Hunting, Target only”
that allowed him to carry a firearm outside the home
only while hunting and target shooting.
25. Because of these restrictions, Mr. Nash is not
able to carry a firearm outside of his home for the
purpose of self-defense.
26. On September 5, 2016, Mr. Nash requested
the Licensing Officer, Defendant Richard N. McNally,
Jr., to remove the “hunting and target” restrictions
from his license and issue him a license allowing him
to carry a firearm for self-defense. In support of this
request, Mr. Nash cited a string of recent robberies in
his neighborhood and the fact that he had recently
completed an advanced firearm safety training course.
Letter from Robert Nash to Richard McNally, Jr.
(Sept. 5, 2016) (attached as Exhibit 1).
27. On November 1, 2016, after an informal
hearing, Defendant McNally denied Mr. Nash’s
request and “determined that the ‘Hunting, Target
only’ restrictions [shall] remain on your carry
concealed permit.” Letter from Richard McNally, Jr.,
to Robert Nash (Nov. 1, 2016) (attached as Exhibit 2).
Defendant
McNally
“emphasize[d]
that
the
restrictions are intended to prohibit you from carrying
concealed in ANY LOCATION typically open to and
frequented by the general public.” Id.
28. Defendant McNally did not determine that
Mr. Nash was ineligible for any of the reasons
enumerated in N.Y. PENAL LAW §400.00(1); indeed, his
eligibility is confirmed by the fact that he continues to

JA 36
hold a “restricted” license. Instead, Defendant
McNally concluded that Mr. Nash had failed to show
“proper cause” to carry a firearm in public for the
purpose of self-defense, because he did not
demonstrate a special need for self-defense that
distinguished him from the general public.
29. In light of Defendant McNally’s denial of his
request to remove the restrictions on his license, Mr.
Nash continues to refrain from carrying a firearm
outside the home for self-defense in New York. Mr.
Nash would carry a firearm in public for self-defense
in New York were it lawful for him to do so.
30. Plaintiff NYSRPA has at least one member
who has had an application for a Handgun Carry
License denied solely for failure to satisfy the “proper
cause” requirement. But for Defendants’ continued
enforcement of the New York laws and regulations set
forth above, that member would forthwith carry a
firearm outside the home for self-defense.
COUNT ONE
42 U.S.C. 1983 Action for Depravation of
Plaintiffs’ Rights under U.S. CONST. amends.
II and XIV
31. Plaintiffs incorporate by reference
allegations of the preceding paragraphs.

the

32. The Second Amendment’s guarantee of “the
right of the people to keep and bear Arms” secures to
law-abiding,
responsible,
adult
citizens
the
fundamental constitutional right to bear arms outside
the home. U.S. CONST. amend. II.

JA 37
33. This Second Amendment right to bear arms in
public applies against the State of New York under
U.S. CONST. amend. XIV.
34. This Second Amendment right to bear arms in
public cannot be subject to a government official’s
discretionary determination of whether a law-abiding
citizen has “proper cause” to exercise that right.
35. A government restriction that limits the right
to bear arms in public for the purpose of self-defense
to only those few, favored citizens who can
demonstrate that they face a special danger to their
life effectively operates as a flat ban on the carrying of
firearms by typical lawabiding citizens, who by
definition cannot demonstrate this kind of atypical
need to bear arms.
36. By infringing the Second Amendment right to
bear arms in public in these ways, the New York laws
and regulations discussed in the foregoing allegations
violate the Second Amendment, which applies to
Defendants by operation of the Fourteenth
Amendment, both facially and as applied to Plaintiff
Robert Nash and members of the New York State Rifle
& Pistol Association, Inc., and they are therefore
invalid.
PRAYER FOR RELIEF
37. WHEREFORE, Plaintiffs pray for an order
and judgment:
a. Declaring that New York’s “proper cause”
requirement, as set forth in statutes and
regulations including but not limited to N.Y.
PENAL LAW §400.00(2)(f), violates the Second and

JA 38
Fourteenth Amendments and is thus devoid of
any legal force or effect;
b. Enjoining Defendants and their employees
and agents from denying unrestricted Handgun
Carry Licenses to applicants on the basis of New
York’s “proper cause” requirement, as set forth in
statutes and regulations including but not limited
to N.Y. PENAL LAW §400.00(2)(f);
c. Enjoining Defendants and their employees
and agents from enforcing the New York laws and
regulations establishing and defining the “proper
cause” requirement, including N.Y. PENAL LAW
§400.00(2)(f);
d. Ordering Defendants and their employees
and agents to issue unrestricted Handgun Carry
Licenses to Plaintiff Robert Nash and members of
Plaintiff New York State Rifle & Pistol
Association, Inc.;
e. Awarding Plaintiffs their reasonable costs,
including attorneys’ fees, incurred in bringing this
action, pursuant to 42 U.S.C. §1988; and
f. Granting such other and further relief as
this Court deems just and proper.

JA 39
Dated: January 31, 2018

Respectfully submitted,

David H. Thompson*
Peter A. Patterson*
John D. Ohlendorf*
COOPER & KIRK, PLLC
1523 New Hampshire
Avenue, N.W.
Washington, D.C. 20036
(202) 220-9600
(202) 220-9601 (fax)
dthompson@cooperkirk.com

s/Kathleen McCaffrey Baynes
Kathleen McCaffrey Baynes,
Bar Roll No. 507154
KATHLEEN MCCAFFREY
BAYNES, ESQ., PLLC
Attorney of Record
21 Everett Road
Extension, Suite A-4
Albany, NY 12205
(518) 489-1098
kmb@kmbaynes.com

*Pro hac vice
application forthcoming
Attorneys for Plaintiffs

JA 40
Exhibit 1 to Complaint,
Letter from R. Nash to Judge R. J. McNally, Jr.
(Sept. 5, 2016)
Dear Honorable Judge Richard J McNally Jr.,
I am writing this letter to request that the
restrictions be removed from my pistol permit. I
intend to use my pistol for personal protection where
legally permitted. The recent string of robberies in the
area has prompted me to go ahead and ask for this
request, most recently, on my street at 35 Alps
Mountain Road on August 15th 2016.
I have and continue to be a law abiding citizen of
Rensselaer County. I have spent the last year and a
half improving my proficiency with my pistol in a safe
manner. My shooting continues to become more
accurate the more I practice. My cousin Tim Osborn, a
former marksman in the US Army, has been a big part
of this working on handling techniques, sight
alignment, stance, breathing techniques, and trigger
control with me.
The basic pistol class and, most recently, the
advanced safety and evaluation pistol class (on
8/31/2016 at American Tactical Systems) that I have
taken have also taught me a lot about law, safety and
technique.
I understand fully the immense responsibility as
well as the possible ramifications of carrying a firearm
concealed on my person for lawful purposes.
Thank you for considering my request.
Sincerely,
Robert Nash

JA 41
Exhibit 2 to Complaint,
Letter from Judge R. J. McNally, Jr. to R. Nash
(Nov. 1, 2016)
Dear Mr. Nash:
This letter reflects that on October 31, 2016 the
Court held a hearing for the request that your
restrictions be removed from your pistol/revolver
license application.
While the Court has determined that the "Hunting,
Target only" restrictions remain on your carry
concealed permit, I note that the restrictions DO
ALLOW you to carry concealed for purposes of off road
back country, outdoor activities similar to hunting, for
example fishing, hiking & camping etc.
I emphasize that the restrictions are intended to
prohibit you from carrying concealed in ANY
LOCATION typically open to and frequented by the
general public.
I would suggest you keep a copy of this letter for
your records.
Sincerely,

RJM/mjs
cc: Charles Daniels
Pistol Permit Clerk

[handwritten: signature]
Richard J. McNally, Jr.
Supreme Court

JA 42
Exhibit 3 to Complaint, Civil Cover Sheet
I. (a) PLAINTIFFS
New York State Rifle &
Pistol Association, Inc.;
and Nash, Robert
(b) County of Residence
of First Listed Plaintiff
Albany_________
(EXCEPT IN U.S.
PLAINTIFF CASES)
(c) Attorneys (Firm
Name, Address, and
Telephone Number)
See Attachment 2
II. BASIS OF
JURISDICTION
(Place an “X” in One
Box Only)
□ 1 U.S. Government
Plaintiff
□ 2 U.S. Government
Defendant
□X Federal Question
(U.S. Government Not a
Party)
□ Diversity (Indicate
Citizenship of Parties in
Item III)

DEFENDANTS
See Attachment 1
County of Residence of First
Listed Defendant
_______________________
(IN U.S. PLAINTIFF CASES
ONLY)
NOTE: IN LAND OF
CONDEMNATION CASES,
USE THE LOCATION OF
THE TRACT OF LAND
INVOLVED
Attorneys (If Known)
III. CITIZENSHIP OF
PRINCIPAL PARTIES
(For Diversity Cases Only)
(Place an “X” in One Box for
Plaintiff and One Box for
Defendant)
PTF DEF
Citizen of This State
□1 □1
Citizen of Another State □2 □2
Citizen or Subject of a Foreign
Country
□3 □3
Incorporated or Principal Place of
Business In This State □4 □4
Incorporated and Principal
Place of Business In Another
State
□5 □5
Foreign Nation
□6 □6

JA 43
IV. NATURE OF SUIT (Place an “X” in One Box Only)
* * *
OTHER STATUTES
□ 375 False Claims Act
□ 376 Qui Tam (31 USC 3729(a)
□ 400 State Reapportionment
□ 410 Antitrust
□ 430 Banks and Banking
□ 450 Commerce
□ 460 Deportation
□ 470 Racketeer Influenced and Corrupt Organizations
□ 480 Consumer Credit
□ 490 Cable/Sat TV
□ 850 Securities/Commodities/Exchange
□ 890 Other Statutory Actions
□ 891 Agricultural Acts
□ 893 Environmental Matters
□ 895 Freedom of Information Act
□ 896 Arbitration
□ 899 Administrative Procedure Act/Review or Appeal of
Agency Decision
□X 950 Constitutionality of State Statutes
V. ORIGIN (Place an “X” in One Box Only)
□X 1. Original Proceeding □ 2. Removed from State Court
□ 3. Remanded from Appellate Court □ 4. Reinstated or
Reopened □ 5. Transferred from Another District (specify)
□ 6. Multidistrict Litigation - Transfer □ 8 Multidistrict
Litigation - Direct File
VI. CAUSE OF ACTION
Cite the U.S. Civil Statute under which you are filing
(Do not cite jurisdictional statutes unless diversity):
42 U.S.C. 1983
Brief description of cause:
Second Amendment challenge to New York’s
restrictions on carrying firearms outside the home

JA 44
VII. REQUESTED IN COMPLAINT:
□ CHECK IF THIS IS A CLASS ACTION UNDER RULE 23,
F.R. Cv.P.
DEMAND $
CHECK YES only if demanded in complaint:
JURY DEMAND:
□ Yes □X No
VIII. RELATED CASE(S) IF ANY
(See
instructions):
JUDGE
______________
DOCKET NUMBER _____________
DATE 01/31/2018
SIGNATURE OF ATTORNEY OF RECORD
s/Kathleen McCaffrey Baynes, Bar Roll No. 507154
FOR OFFICE USE ONLY
ANYNDC4273520
RECIEPT#______ AMOUNT $400.00 APPLYING
IFP _____ JUDGE BKS MAG. JUDGE ATB
ATTACHMENT 1 -DEFENDANTS
New York State Police, Beach, George P., II,
Superintendent
McNally, Richard J., Jr., Licensing Officer
ATTACHMENT 2 - ATTORNEYS FOR
PLAINTIFFS
David H. Thompson*
Kathleen McCaffrey Baynes,
Peter A. Patterson*
Bar Roll No. 507154
John D. Ohlendorf*
KATHLEEN MCCAFFREY
COOPER & KIRK, PLLC BAYNES, ESQ., PLLC
1523 New Hampshire
21 Everett Road
Avenue, N.W.
Extension, Suite A-4
Washington, D.C. 20036
Albany, NY 12205
(202) 220-9600
(518) 489-1098
dthompson@cooperkirk.com kmb@kmbaynes.com
*Pro hac vice application
forthcoming

JA 45
Notice of Motion To Dismiss (March 26, 2018)
PLEASE TAKE NOTICE that upon the
Complaint and the accompanying Memorandum of
Law; and upon all prior proceedings, Defendants
George P. Beach and Richard J. McNally, on May 3,
2018 at 10:00 a.m., or as soon thereafter as counsel can
be heard, will make a motion at the United States
District Court, Northern District of New York,
Syracuse, New York, pursuant to Rule 12(b)(6) of the
Federal Rules of Civil Procedure, for an order
dismissing the Complaint in its entirety, together with
such other or further relief as may be just.
Dated: Albany, New York
March 26, 2018
ERIC T. SCHNEIDERMAN
Attorney General of the State of
New York
Attorney for Defendants, George P.
Beach and Richard J. McNally
The Capitol
Albany, New York 12224-0341
By: [handwritten: signature]
Kelly L. Munkwitz
Assistant Attorney General,
of Counsel
Bar Roll No. 509910
Telephone: (518) 776-2626
Fax: (518) 915-7738 (Not for
service of papers)
Email: Kelly.Munkwitz@ag.ny.gov

JA 46
To: Kathleen McCaffrey Baynes, Esq. (via ECF)
KATHLEEN MCCAFFREY BAYNES, ESQ., PLLC
21 Everett Road Extension, Suite A-4
Albany, NY 12205
John D. Ohlendorf, Esq. (via ECF)
COOPER & KIRK, PLLC
Peter A. Patterson, Esq. (via ECF)
COOPER & KIRK, PLLC
David H. Thompson, Esq. (via ECF)
COOPER & KIRK, PLLC
1523 New Hampshire Avenue, N.W.
Washington, DC 20036

JA 47
Exhibit 1 to Motion To Dismiss, Memorandum
in Support of Motion (March 26, 2018)
PRELIMINARY STATEMENT
This Memorandum of Law is respectfully
submitted on behalf of defendants New York State
Police Superintendent George P. Beach II and the
Honorable Richard J. McNally, Jr. (collectively
“defendants”) and in support of their motion to dismiss
the Complaint pursuant to Federal Rule of Civil
Procedure 12(b)(6). In Kachalsky v. County of
Westchester, the Second Circuit definitively held that
New York’s handgun licensing scheme, which requires
an applicant to demonstrate “proper cause” to obtain
a license to carry a concealed handgun in public, does
not violate the Second Amendment to the United
States Constitution. Despite the Second Circuit’s
ruling, plaintiffs now mount a facial challenge to the
constitutionality of New York’s Penal Law section
400.00(2)(f)-the very statute at issue in Kachalsky.
Because Kachalsky, which was properly decided, is
binding precedent, the Complaint fails to state a cause
of action and must be dismissed.
FACTS
Plaintiff New York State Rifle & Pistol
Association, Inc. (NYSRPA) is a “group organized to
support and defend the right of New York residents to
keep and bear arms.” Complaint, Dkt. # 1, ¶ 11. It
purports to have thousands of members who live in
New York, including plaintiff Robert Nash. Id.
Plaintiff Nash lives in Averill Park, New York and
owns several handguns. Complaint, Dkt. # 1, ¶¶ 10,
23. As of March 12, 2015, plaintiff Nash also possesses

JA 48
a firearm 1 for home possession and which is marked
“Hunting, Target only.” Complaint, Dkt. # 1, ¶ 24.
Plaintiff Nash’s permit allows him to carry a handgun
outside of his home for hunting and target shooting,
including “carrying concealed for the purposes of off
road back country, outdoor activities similar to
hunting, for example, fishing, hiking & camping, etc.”
Dkt. # 1, Ex. 2. According to the Complaint, plaintiff
Nash does not face any special or unique danger to his
life. Dkt. # 1, ¶ 23.
Defendant Richard J. McNally, Jr. is a Justice of
the New York Supreme Court, Third Judicial District.
Complaint, Dkt. #1, ¶ 13. He is sued in his official
capacity. Justice McNally is a Licensing Officer for
Rensselaer County under Penal Law section 400.00.
In that role, “he is responsible for receiving
applications, investigating the applicant, and either
approving or denying the application” for a handgun
license. Complaint, Dkt. #1, ¶ 13. Defendant George P.
Beach II is the Superintendent of the New York State
Police. He is sued in his official capacity, presumably
because his agency is one of the law enforcement
agencies in New York State that enforces the New
York Penal Law. See Complaint, Dkt. # 1, ¶ 12.
A “firearm” is defined under New York law to include pistols
and revolvers; shotguns with barrels less than eighteen inches in
length; rifles with barrels less than sixteen inches in length; “any
weapon made from a shotgun or rifle” with an overall length of
less than twenty-six inches; and assault weapons. Penal Law
§265.00(3); see Kachalsky, 701 F.3d at 85. Rifles and shotguns are
otherwise not subject to New York’s licensing provisions. Penal
Law §265.00(3); see Kachalsky, 701 F.3d at 85. Plaintiff may have
long guns which he is free to keep at home or to carry without a
license.
1

JA 49
Superintendent Beach also approves the form that a
person seeking a license to carry a concealed handgun
must submit. Complaint, Dkt. #1, ¶ 15.
On September 5, 2016, plaintiff Nash applied to
Justice McNally to have the hunting and target
restrictions removed from his license and have Judge
McNally issue plaintiff Nash a license that would
permit him to carry a concealed handgun in public.
Complaint, Dkt. #1, ¶ 26. Although plaintiff Nash
owns handguns that he “keeps in his home to defend
himself and his family”, he cited “a string of recent
robberies in his neighborhood” as justification for his
application. Complaint, Dkt. #1, ¶¶23, 26. Justice
McNally held an informal hearing to determine
whether plaintiff Nash could establish “proper cause”.
Complaint, Dkt. #1, ¶¶ 27-28. Section 400.00(2)(f) of
New York’s Penal Law requires a finding of proper
cause before a Licensing Officer may issue a permit to
carry a concealed firearm in public. Complaint, Dkt.
#1, ¶¶ 15-17. Justice McNally found that plaintiff did
not establish proper cause because he “did not
demonstrate a special need for self-defense that
distinguishes him from the general public.”
Complaint, Dkt. #1, ¶ 28. Plaintiff Nash continues to
maintain his license that permits him to use his
handguns for hunting and target use, as well as
protection in the home. Complaint, Dkt. #1, ¶ 27.
Plaintiffs now challenge the constitutionality of
New York Penal Law section 400.00(2)(f), citing to
Wrenn v. District of Columbia, a recent case out of the
D.C. Circuit. Because the Second Circuit has
established that the statute is constitutional, the
Complaint must be dismissed.

JA 50
ARGUMENT
In deciding a motion to dismiss under Federal
Rule of Civil Procedure 12(b)(6), a court should “draw
all reasonable inferences in Plaintiff[’s] favor, assume
all well-pleaded factual allegations to be true, and
determine whether they plausibly give rise to an
entitlement to relief.” Faber v. Metro. Life Ins. Co., 648
F.3d 98, 104 (2d Cir. 2011) (internal quotation marks
omitted).
“‘To survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to
state a claim to relief that is plausible on its face.’”
Reeve v. Murabito, No. 13-cv-712, 2013 U.S. Dist.
LEXIS 163359, at *4 (N.D.N.Y. Nov. 15, 2013)
(quoting Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009))
(internal quotation marks omitted). “‘A claim has
facial plausibility when the plaintiff pleads factual
content that allows the court to draw the reasonable
inference that the defendant is liable for the
misconduct alleged.’” Id. The complaint must “allege
‘more than a sheer possibility that a defendant has
acted unlawfully’ and more than ‘facts that are merely
consistent with a defendant’s liability.’” Id. (internal
quotation marks omitted). Determining whether a
complaint plausibly states a claim for relief is “a
context specific task that requires the reviewing court
to draw on its judicial experience and common sense.”
Iqbal, 556 U.S. at 679; accord Harris v. Mills, 572 F.3d
66, 71-72 (2d Cir. 2009). Here, plaintiffs acknowledge
that the Complaint is contrary to the Second Circuit’s
decision in Kachalsky. By the very language of the
Complaint, plaintiffs fail to state a claim for relief.

JA 51
POINT I
BECAUSE THE HOLDING IN KACHALSKY IS
CONTROLLING, THE COMPLAINT MUST BE DISMISSED
Plaintiffs assert that the Second Circuit wrongly
decided Kachalsky for the reasons explained in Wrenn
v. District of Columbia, 864 F.3d 650 (D.C. Cir. 2017),
and seek from this Court a declaration that New York
Penal Law section 400.00(2)(f) violates the Second
Amendment to the United States Constitution. They
further seek injunctive relief and attorney fees. This
Court may not provide the relief sought. NewsomLang v. Warren Int’l, 129 F. Supp.2d 662, 664
(S.D.N.Y. 2001).
District courts are bound by the applicable Circuit
precedent. Id.; Monsanto v. United States, 348 F.3d
345, 351 (2d Cir. 2003). “This Court must follow
binding precedent from the Second Circuit.” Preston v.
Berryhill, 254 F. Supp. 3d 379, 384-385 (N.D.N.Y.
2017) (citing United States ex rel. Schnitzler v. Follette,
406 F.2d 319, 322 (2d Cir. 1969)). Even if this Court
finds the holding in Wrenn more persuasive, it may
not substitute its own judgment for that of the Second
Circuit. “‘Rather, lower courts should follow the case
which directly controls, leaving to [the Circuit] Court
the prerogative of overruling its own decisions.”’
Windsor v. United States, 699 F.3d 169, 195 (2d Cir.
2012) (quoting Agostini v. Felton, 521 U.S. 203, 207,
117 S. Ct. 1997, 138 L. Ed. 2d 391 (1997)) (alteration
added); see also United States v. Diaz. 122 F. Supp.3d
135, 168 (S.D.N.Y. 2015), aff’d 2017 U.S. App. LEXIS
6579 (2d Cir. Apr. 18, 2017).
It is undisputed that the holding in Kachalsky is
controlling here. See Complaint, Dkt. #1, ¶ 6 (noting

JA 52
the relief sought is contrary to Kachalsky); ¶¶ 5, 15-19
(setting forth facts that challenge section 400.00(2)(f)
of New York's Penal Law, specifically the requirement
that an applicant show “proper cause” to obtain a
license to carry a concealed firearm); Kachalsky v.
County of Westchester, 864 F.3d 81, (2d Cir. 2012)
(finding the issue to be whether New York’s firearm
licensing scheme, which requires an applicant to
demonstrate “proper cause” to obtain a license to carry
a concealed handgun in public, violates the Second
Amendment).
While this Court's inquiry necessarily ends upon
review of the Complaint and the decision in
Kachalsky, it is noteworthy that the D.C. Circuit's
decision in Wrenn adds nothing to the Second Circuit's
decision in Kachalsky. Indeed, the arguments
accepted by the Wrenn court were considered and
rejected by the Second Circuit. For example, the D.C.
Circuit found that the ability to carry a firearm
outside of the home was a central or core component
to the Second Amendment's right to keep and bear
arms. Wrenn v. District of Columbia, 864 F.3d 650, 657
(D.C. Cir. 2017). The Second Circuit flatly rejected
that same argument, finding that the ability to carry
weapons outside of the home did not constitute a “core”
component to the Second Amendment. Kachalsky v.
District of Columbia, 701 F.3d 81, 93 (2d Cir.
2012)(“Heller explains that the ‘core’ protection of the
Second Amendment is the ‘right of law-abiding,
responsible citizens to use arms in defense of hearth
and home.’”); see also McDonald v. City of Chicago, Ill.,
561 U.S. 742, 791 (2010).

JA 53
The Second Circuit and the D.C. Circuit also differ
in the manner they view the Supreme Court’s decision
in District of Columbia v. Heller, 554 U.S. 570, 128 S.
Ct. 2783, 171 L.Ed.2d 637 (2008) and the manner in
which they treat the various states’ historic regulation
of weapons. See Wrenn, 864 F.3d at 662
(distinguishing Kachalsky). While Wrenn was decided
after Kachalsky, the Second Circuit (and courts within
it) continues to rely upon Kachalsky as controlling.
See, e.g., New York State Rifle & Pistol Ass’n v. City of
New York, 883 F.3d 45 (2d Cir. 2018); Libertarian
Party v. Cuomo, 2018 U.S. Dist. LEXIS 4543, 2018 WL
353181 (W.D.N.Y. 2018). In fact, the Second Circuit
specifically considered and rejected the reasoning in
Wrenn. In New York State Rifle & Pistol Ass'n, Inc. v.
City of New York, the Second Circuit stated:
We are aware that a divided panel of the
Seventh Circuit and a divided panel of the
District of Columbia Circuit have disagreed
with Kachalsky. See Moore v. Madigan, 702
F.3d 933, 941 (7th Cir. 2012); Wrenn v.
District of Columbia, 864 F.3d 650, 662 (D.C.
Cir. 2017). After giving careful and respectful
attention to the reasoning of those opinions,
we reaffirm our prior holding, by which this
panel is, in any event, bound. We also
recognize that the Third and Fourth Circuits
have adopted reasoning similar to ours in
upholding various state regulations on the
carrying of firearms outside the home. See
Drake v. Filko, 724 F.3d 426, 433 (3d Cir.
2013); Woollard v. Gallagher, 712 F.3d 865,
880-81 (4th Cir. 2013). The Ninth Circuit
upheld a similar regulation on other grounds.

JA 54
Peruta v. Cty. of San Diego, 824 F.3d 919, 924
(9th Cir. 2016) (en banc) (holding that “the
Second Amendment does not ... protect a right
of a member of the general public to carry
concealed firearms in public”), cert. denied
sub nom. Peruta v. California, --- U.S. ----, 137
S.Ct. 1995, 198 L.Ed.2d 746 (2017).
883 F.3d at 56 n.5. Plaintiffs’ argument that after the
Wrenn decision, the Second Circuit should revisit
Kachalsky as it was “wrongly decided” is unfounded.
The Second Circuit’s well-reasoned analysis in
Kachalsky includes discussion of New York’s
longstanding history of firearm regulation, 701 F.3d at
84-85, the Supreme Court’s decision in Heller, id. at
88-94, various states’ historical regulation of firearms
in public places, id. at 89-90, 95-96, and historical and
current studies that address the potential danger of
concealed handguns in public places, id. at 84-85, 99.
While not relevant to the issue before this Court, as
the Kachalsky decision is controlling, it is noteworthy
that more recent studies are even more compelling
than those considered by the Second Circuit in
Kachalsky.
Plaintiffs essentially ask that New York move to
become a “shall issue” state, where licensing officials
have little to no discretion and where applicants need
not show “proper cause” to have unrestricted license
to carry concealed handguns in public. Recent studies
have shown that violent crime increases 12.3% after
states move from laws requiring a showing of a need
to carry firearms in public places to a more permissive
system, with the effect increasing by 1.1% each year

JA 55
thereafter. 2 John Donohue Study discussed in
Webster, et al. Firearms on College Campuses:
Research Evidence and Policy Implications (2016)
(available at https://www.jhsph.edu/research/centersand-institutes/johns-hopkins-center-for-gun-policyandresearch/_ pdfs/GunsOnCampus.pdf).
Other recent empirical evidence also strongly
demonstrates that licensing laws regulating the public
carrying of guns, like New York’s, substantially
advance the state’s compelling interests in protecting
its citizens from gun violence. Research now shows
that handgun permit and licensing laws are “[t]he
type of firearm policy most consistently associated
with curtailing the diversion of guns to criminals and
for which some evidence indicates protective effects
against gun violence.” Daniel W. Webster & Garen J.
Wintemute, Effects of Policies Designed to Keep
Firearms from High-Risk Individuals, 36 Ann. Rev.
Pub.
Health
21,
34
(2015)(available
at
https://www.annualreviews.org/doi/full/10.1146/annu
rev-publhealth-031914-122516).
The vast majority of firearms-related homicides—
approximately 90% in 2015—are committed with
handguns. States where handgun licensing laws leave
licensing officials with little or no discretion (referred
to as “shall-issue states”) are associated with
The Court may properly take judicial notice of “studies and
data” in assessing Plaintiffs’ Second Amendment claim.
Kachalsky, 701 F.3d at 97-99; New York State Rifle & Pistol
Ass'n, Inc. v. Cuomo, 804 F.3d at 261-62; see also, e.g., Snell v.
Suffolk Cnty., 782 F.2d 1094, 1105-06 (2d Cir. 1986) (holding that
social science studies can be reviewed by courts as “legislative
facts”).

2

JA 56
significantly higher rates of total (6.5%), firearmrelated (8.6%), and handgun-related (10.6%) homicide
when compared with “may-issue” states like New
York. See, e.g., Michael Siegel, et. al., Easiness of Legal
Access to Concealed Firearm Permits and Homicide
Rates in the United States (2017) (available at
http://ajph.aphapublications.org/doi/full/10.2105/AJP
H.2017.304057). In those states that move from
handgun licenses to “right to carry” handgun laws,
violent crime increases an average of 12.3%, with the
effect increasing by 1.1% each year the change is in
effect. Another comprehensive study found that shallissue laws increase violent crime and murder,
including a 13-15% increase in violent crime after ten
years and small increases in property crime and
homicide. John Donohue, Right to Carry laws and
Violent Crime: a Comprehensive Assessment Using
Panel Data and a State Level Synthetic Controls
Analysis (2017). Shall-issue laws are also associated
with an increase in aggravated assault generally and
a 33% increase in gun-related aggravated assault.
Abhey Aneja & John Donohue, The Impact of Right to
Carry Laws and the NRC report: the Latest Lessons for
the Empirical Evaluation of Law and Policy
(2012)(available
at
http://www.nber.org/papers/w18294.pdf).
Two important examples of the import of handgun
licensing laws are found in the experiences in Missouri
and Connecticut. Missouri’s repeal of its handgun
licensing law, in 2007, was associated with a 14%
increase in the state’s annual murder rate and an
increase of 25% in its rate of firearm homicides. Daniel
Webster et al., Effects of the Repeal of Missouri’s
Handgun Purchaser Licensing Law on Homicides, 91

JA 57
J. Urban Health 293 (2014) (erratum: 91 J. Urban
Health
598
(2014))
(available
at
https://www.ncbi.nlm.nih.gov/pmc/articles/PMC39781
46/
and
https://www.ncbi.nlm.nih.gov/pmc/articles/PMC40743
29/). Yet another study examined the impact of
Connecticut’s handgun licensing law and found that it
was associated with a 40% reduction in that state’s
firearm homicide rate. Kara E. Rudolph et al.,
Association Between Connecticut’s Permit-to-Purchase
Handgun Law and Homicides, 105 Am. J. Pub. Health
e49
(2015)(available
at
https://www.ncbi.nlm.nih.gov/pmc/articles/PMC45042
96/). Notably, in both Missouri and Connecticut, no
“substitution effect” was observed, meaning criminals
did not just switch to other weapons when they failed
to obtain firearms.
These recent studies are not dispositive here. This
Court is bound by the Second Circuit’s previous
decisions in Kachalsky and NYSRPA v. City of New
York, 883 F.3d at 57. Nevertheless, it is perhaps
because of the strength of the empirical evidence
showing that New York’s licensing laws, including the
“proper cause” requirement, substantially advance the
State’s compelling interest in public safety that the
plaintiffs simply ask the Court to set aside Kachalsky
as “wrongly decided” and to blindly follow Wrenn.
POINT II
THE CLAIM BROUGHT BY NYSRPA SHOULD BE
DISMISSED ON THE ADDITIONAL BASIS THAT
NYSRPA LACKS STANDING TO PURSUE FACIAL
CONSTITUTIONAL CHALLENGES LIKE THIS ONE.

JA 58
The organizational plaintiff, NYSRPA, lacks
standing. NYSRPA alleges in the Complaint that that
the challenged statutes are “a direct affront” to its
“central mission” and that it brings suit to “support
and defend” that rights of New York residents and its
members to carry firearms outside the home. Dkt. # 1,
¶ 11. But in a 42 U.S.C. §1983 action like this one, an
organization may bring suit only “on its own behalf,
rather than that of its members.” N.Y. State Citizens’
Coal. for Children v. Velez, No. 14-2919-cv, 2015 U.S.
App. LEXIS 18805, at *3 (2d Cir. Oct. 29, 2015)
(summary order); see, e.g., Knife Rights Inc. v. Vance,
802 F.3d 377, 387-89 (2d Cir. 2015); Nnebe v. Daus,
644 F.3d 147, 156 (2d Cir. 2011). The Complaint is
silent as to any injury that NYSRPA itself has
sustained, let alone one that would give rise to
standing in this case. See, e.g., Kachalsky, 817 F.
Supp. 2d at 251 (holding that an organizational
plaintiff’s allegations “that it ‘promote[s] the exercise
of the right to keep and bear arms and engages in
‘education, research, publishing and legal action
focusing on the [c]onstitutional right to privately own
and possess firearms’ ... are plainly insufficient to give
rise to standing”).
CONCLUSION
By its own terms, the Complaint runs counter to
the Second Circuit Court of Appeals decision in
Kachalsky v. County of Westchester. Because
Kachalsky is binding precedent on this Court, the
Complaint must be dismissed.
Dated: Albany, New York
March 26, 2018

JA 59
ERIC T. SCHNEIDERMAN
Attorney General of the State of
New York
Attorney for Defendants, George P.
Beach and Richard J. McNally
The Capitol
Albany, New York 12224-0341
By: [handwritten: signature]
Kelly L. Munkwitz
Assistant Attorney General,
of Counsel
Bar Roll No. 509910
Telephone: (518) 776-2626
Fax: (518) 915-7738 (Not for
service of papers)
Email: Kelly.Munkwitz@ag.ny.gov
To: Kathleen McCaffrey Baynes, Esq. (via ECF)
KATHLEEN MCCAFFREY BAYNES, ESQ., PLLC
21 Everett Road Extension, Suite A-4
Albany, NY 12205
John D. Ohlendorf, Esq. (via ECF)
COOPER & KIRK, PLLC
Peter A. Patterson, Esq. (via ECF)
COOPER & KIRK, PLLC
David H. Thompson, Esq. (via ECF)
COOPER & KIRK, PLLC
1523 New Hampshire Avenue, N.W.
Washington, DC 20036

JA 60
Plaintiffs’ Memorandum in Opposition To
Defendants’ Motion to Dismiss
(May 7, 2018)
INTRODUCTION
At the core of the Second Amendment lies “the
individual right to possess and carry weapons in case
of confrontation.” District of Columbia v. Heller, 554
U.S. 570, 592 (2008). When the people elevated that
right into the Nation’s fundamental charter, they did
not intend to leave the freedom to exercise it at the
mercy of the very government officials whose hands
they sought to bind. No, “[t]he very enumeration of the
right takes out of the hands of government ... the
power to decide on a case-by-case basis whether the
right is really worth insisting upon.” Id. at 634.
Defendants—state and local officials responsible for
administering and enforcing New York’s regulations
governing carrying firearms outside the home—have
imposed limits on “the right of the people to ... bear
Arms,” U.S. CONST. amend. II, that flout these basic
constitutional principles at every turn. New York has
seized the very power forbidden it by the Second
Amendment: the power to decide, on a case-by-case
basis, whether an applicant for a license to “carry
weapons in case of confrontation,” Heller, 554 U.S. at
592, has, in the estimation of its local licensing
authorities, shown a sufficiently “proper cause” to
exercise that right, N.Y. PENAL LAW §400.00(2)(f).
Worse still, the State has determined that a general
desire to carry a weapon for selfdefense is not a
sufficiently good reason—demanding, instead, proof
that a law-abiding citizen wishing to exercise the right
has “a special need for self-protection distinguishable
from that of the general community,” Klenosky v. New

JA 61
York City Police Dep’t, 428 N.Y.S.2d 256, 257 (1st
Dep’t 1980), aff’d, 53 N.Y.2d 685 (1981). Defendants
have thus struck a balance directly contrary to the
Constitution’s demand that the right to self-defense—
“the central component” of the Second Amendment,
Heller, 554 U.S. at 599—must be “elevate[d] above all
other interests.” Id. at 635.
To be sure, as New York points out, the Second
Circuit—in precedent we concede is binding on this
Court at this stage in the litigation—has upheld New
York’s “proper cause” limit. Kachalsky v. County of
Westchester, 701 F.3d 81 (2d Cir. 2012). But Kachalsky
is deeply flawed, and it should be overturned at the
first opportunity by a court competent to do so.
Kachalsky does not meaningfully acknowledge the
extensive
textual
and
historical
evidence
demonstrating that the right to carry firearms for selfprotection outside the home is at the very core of the
Second Amendment. It adopts merely “intermediate”
constitutional scrutiny, effectively relegating the right
to bear arms to second-class status. And even if the
choice of intermediate scrutiny were defensible,
Kachalsky’s application of it—essentially deferring to
the State’s judgment without discussing or even
identifying the empirical evidence on which that
judgment was supposedly based—is not.
In sum, although this Court is presently bound by
Second Circuit precedent to uphold it, New York’s
“proper cause” restriction is unconstitutional.
STATEMENT
I. New York’s “Proper Cause” requirement
Under New York law, an ordinary member of the
general public who wishes to carry a handgun outside

JA 62
the home must first obtain a license to “have and carry
[a handgun] concealed” (a “Handgun Carry License”)
pursuant to Section 400.00(2)(f) of New York’s Penal
Law. A person seeking such a license must submit an
application to the Licensing Officer for the city or
county where the applicant resides, on an application
form approved by the Superintendent of the New York
State Police, Defendant Beach. N.Y. PENAL LAW
§400.00(3)(a).
New York imposes a number of objective
restrictions on the eligibility for a Handgun Carry
License. For example, an applicant must be at least 21
years old, must not have been convicted of any felony
or serious offense, must not be an unlawful user of a
controlled substance, and must not have a history of
mental illness. Id. §400.00(1). Before issuing a license,
the Licensing Officer must conduct a rigorous
investigation and background check to verify that
each of these statutory requirements is satisfied. Id.
§400.00(4).
In addition to these eligibility requirements, New
York law also imposes a more subjective restriction on
the availability of Handgun Carry Licenses: an
applicant must demonstrate that “proper cause exists
for the issuance thereof.” Id. §400.00(2)(f). While
Licensing Officials retain some discretion in
determining what constitutes “proper cause” under
this standard, a significant body of New York case-law
provides several examples of reasons that do not
qualify. The courts have determined, for instance, that
“[a] generalized desire to carry a concealed weapon to
protect one’s person and property does not constitute
‘proper cause.’ ” Application of O’Connor, 585 N.Y.S.2d

JA 63
1000, 1003 (Sup. Ct. West. Cty. 1992). They have
further clarified that merely traveling through “high
crime areas ... is too vague to constitute ‘proper cause’
within the meaning of Penal Law §400.00(2)(f),”
Martinek v. Kerik, 743 N.Y.S.2d 80, 81 (1st Dep’t
2002); instead, an applicant must “demonstrate a
special need for self-protection distinguishable from
that of the general community or of persons engaged
in the same profession,” Klenosky, 428 N.Y.S.2d at
257. 1
Accordingly, typical New Yorkers—the vast
majority of citizens who cannot “demonstrate a special
need for self-protection distinguishable from that of
the general community,” id.—effectively remain
subject to a ban on carrying handguns outside the
home for self-defense.
II. Defendants’ refusal to issue handgun carry
licenses to Plaintiffs
Pursuant to this restriction, Defendants denied a
request by Plaintiff Nash for a Handgun Carry
License that would allow him to carry a handgun in
public for self-defense. Mr. Nash, a resident of
Rensselaer County, applied to his local Licensing
Officer for a Handgun Carry License in late 2014.
Complaint for Declaratory & Injunctive Relief ¶ 24
(Feb. 1, 2018), Doc. 1 (“Compl.”). The Licensing Officer
Some Licensing Officers grant what they call “restricted
licenses,” which are licenses that are marked by certain
restrictions, such as “hunting and target.” These licenses may be
granted without a showing of a special need for self-defense, but
they allow the licensee to carry a firearm only when engaged in
the specified activities. Such a license thus does not permit the
carrying of a firearm in public for the purpose of self-defense.
1

JA 64
determined that Mr. Nash met all of the eligibility and
training requirements imposed by New York law and
granted his application on March 12, 2015. Id. But the
license Mr. Nash was issued was marked “Hunting,
Target only,” and it thus allowed him to carry a
firearm outside the home only while hunting and
target shooting—not for the general purpose of
selfprotection. Id. ¶¶ 24-25.
Because he wanted to carry a firearm for selfdefense, Mr. Nash requested the Licensing Officer,
Defendant Richard N. McNally, Jr., to remove the
“hunting and target” restrictions from his license and
issue him a license allowing him to carry a firearm for
self-protection. Id. ¶ 26. In support of this request, Mr.
Nash cited a string of recent robberies in his
neighborhood and the fact that he had recently
completed an advanced firearm safety training course.
Id. On November 1, 2016, after an informal hearing,
Defendant McNally denied Mr. Nash’s request and
“determined that the ‘Hunting, Target only’
restrictions [shall] remain on your carry concealed
permit.” Id ¶ 27; see also id. at Ex. 2. Those
restrictions, Defendant McNally emphasized, “are
intended to prohibit you from carrying concealed in
ANY LOCATION typically open to and frequented by
the general public.” Id ¶ 27; see also id. at Ex. 2. While
Mr. Nash met all of New York’s eligibility
requirements, Defendant McNally concluded that he
had failed to show “proper cause” because he did not
demonstrate a special need for self-defense that
distinguished him from the general public. Id. ¶ 28. 2
2 Defendants have also refused, on the basis of the “proper cause”
requirement, to grant at least one member of organizational

JA 65
ARGUMENT
“To survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to
state a claim to relief that is plausible on its face.”
Myun-Uk Choi v. Tower Research Capital LLC, 886
F.3d 229, 234 (2d Cir. 2018) (quotation marks
omitted). “[T]he only facts to be considered are those
alleged in the complaint, and the court must accept
them, drawing all reasonable inferences in the
plaintiff’s favor, in deciding whether the complaint
alleges sufficient facts to survive.” Doe v. Columbia
Univ., 831 F.3d 46, 48 (2d Cir. 2016).
As Defendants point out, the Second Circuit held
in Kachalsky that New York’s “proper cause”
restriction on the issuance of Handgun Carry Licenses
is consistent with the Second Amendment. Because
this Court “is required to follow precedent established
by higher courts,” United States v. Hildenbrandt, 378
F. Supp. 2d 44, 48 (N.D.N.Y. 2005), aff’d, 207 F. App’x
50 (2d Cir. 2006), Plaintiffs do not dispute that it must
follow the controlling decision in Kachalsky, at this
point in the proceedings. But Kachalsky’s ruling is
deeply flawed, and as we show below, it should be
overruled at the first opportunity by a court with
authority to do so.
I. The conduct restricted by New York’s “proper
cause” requirement lies at the core of the
Second Amendment.

Plaintiff New York State Rifle and Pistol Association a license
that would allow them to carry a firearm outside the home for
self-defense. Id. ¶ 30.

JA 66
A. Text, history, precedent, and purpose all
confirm that the right to keep and bear
arms extends outside the home.
In District of Columbia v. Heller, the Supreme
Court held that the Second Amendment “guarantee[s]
the individual right to possess and carry weapons in
case of confrontation.” 554 U.S. 570, 592 (2008). And
although that landmark ruling did not purport to
“clarify the entire field” of Second Amendment
jurisprudence, id. at 635, Heller did set forth clear
guidance about the methodology for deciding future
disputes over the right to keep and bear arms. Because
“[c]onstitutional rights are enshrined with the scope
they were understood to have when the people adopted
them,” id. at 634-35, deciding whether a government
restriction challenged on Second Amendment grounds
can be squared with that provision involves a close
“textual and historical analysis.” New York State Rifle
& Pistol Ass’n, Inc. v. Cuomo, 804 F.3d 242, 253 (2d
Cir. 2015). Here, text, precedent, purpose, and history
uniformly show that the carrying of firearms outside
the home for self-defense is squarely protected by the
Second Amendment right.
1. As even the Kachalsky court recognized, “[t]he
plain text of the Second Amendment does not limit the
right to bear arms to the home.” 701 F.3d at 89 n.10.
The substance of the Second Amendment right
reposes in the twin verbs of the operative clause: “the
right of the people to keep and bear Arms, shall not be
infringed.” U.S. CONST. amend. II (emphasis added).
Because “[t]o speak of ‘bearing’ arms within one’s
home would at all times have been an awkward
usage,” the Constitution’s explicit inclusion of the

JA 67
“right to bear arms thus implies a right to carry a
loaded gun outside the home.” Moore v. Madigan, 702
F.3d 933, 936 (7th Cir. 2012). Indeed, interpreting the
Second Amendment as confined to the home would
read the second of these guarantees—the right to bear
arms—out of the Constitution’s text altogether, for the
right to keep arms, standing alone, would be sufficient
to protect the right to have arms in the home.
2. Confining the right to keep and bear arms to
the home would also be at war with precedent. The
Supreme Court’s decision in “Heller repeatedly
invokes a broader Second Amendment right than the
right to have a gun in one’s home.” Id. at 935-36. For
instance, Heller squarely holds that the Second
Amendment “guarantee[s] the individual right to
possess and carry weapons in case of confrontation,”
554 U.S. at 592 (emphasis added), and it defines the
key constitutional phrase “bear arms” as to “ ‘wear,
bear, or carry ... upon the person or in the clothing or
in a pocket, for the purpose ... of being armed and
ready for offensive or defensive action in a case of
conflict with another person,’ ” id. at 584 (alteration in
original) (quoting Muscarello v. United States, 524
U.S. 125, 143 (1998) (Ginsburg, J., dissenting)).
Heller’s indication that “laws forbidding the carrying
of firearms in sensitive places such as schools and
government buildings” are “presumptively lawful”
also implicitly recognizes a general right to bear arms
in public; otherwise, there would be no need to identify
exceptions. Id. at 626, 627 n.26. Moreover, Heller
extensively cites and significantly relies upon Nunn v.
State, a nineteenth-century Georgia case that “struck
down a ban on carrying pistols openly” under the
Second Amendment. Id. at 612; see also Caetano v.

JA 68
Massachusetts, 136 S. Ct. 1027 (2016) (vacating state
court ruling that the Second Amendment does not
protect the right to carry a stun gun in public).
While the Second Circuit in Kachalsky did not
squarely address whether the Second Amendment
applies outside the home, it assumed for the sake of
analysis “that the Amendment must have some
application” in public. 701 F.3d at 89. That
assumption is consistent with the persuasive
authority from other federal courts. Two circuit courts
have directly held that the Second Amendment right
to armed self-defense does not give out at the doorstep.
See Wrenn v. District of Columbia, 864 F.3d 650, 661
(D.C. Cir. 2017); Moore, 702 F.3d at 935, 942. And no
federal court of appeals has held that the Amendment
does not apply outside the home.
3. The very purposes behind the Second
Amendment’s codification show that it must protect
the carrying of arms outside the home. As announced
by its “prefatory” clause, the Amendment was
designed in part “to prevent elimination of the
militia.” Heller, 554 U.S. at 599. A right to bear arms
limited to the home would be ill-suited to “rearing up
and qualifying a wellregulated militia,” id. at 612
(quoting Nunn v. State, 1 Ga. 243, 251 (1846)), for if
citizens could be prohibited from carrying arms in
public, they simply could not act as the militia at all.
Of course, the militia was not “the only reason
Americans valued the ancient right; most undoubtedly
thought it even more important for self-defense and
hunting.” Id. at 599. Hunting obviously cannot be
conducted by those bearing arms only within their
homes. And the same reasoning applies with even

JA 69
more force to the “the central component” of the Second
Amendment right: self-defense. Id. at 599. There is
nothing in the Court’s language to suggest that this
core purpose may only be pursued in the home. Nor is
there any such suggestion in the Amendment’s text.
And “one doesn’t have to be a historian to realize that
a right to keep and bear arms for personal self-defense
in the eighteenth century could not rationally have
been limited to the home.” Moore, 702 F.3d at 936.
“The Supreme Court has decided that the [Second
Amendment] confers a right to bear arms for selfdefense, which is as important outside the home as
inside.” Id. at 942. Indeed, according to the latest
nationwide data from the Bureau of Justice Statistics,
18.4% of violent crimes occur at or in the victim’s
home, while 26.5% occur on the street or in a parking
lot or garage. 3 Thus, “[t]o confine the right to be armed
to the home is to divorce the Second Amendment from
the right of self-defense described in Heller and
McDonald.” Moore, 702 F.3d at 937.
4. Finally, the historical understanding of the
right to keep and bear arms conclusively confirms that
it extends outside the home.
As McDonald v. City of Chicago explains, “[s]elfdefense is a basic right, recognized by many legal
systems from ancient times to the present day.” 561
U.S. 742, 767 (2010). And because the need for selfdefense may arise in public, it has long been
recognized that the right to self-defense may be
exercised in public. Thus, “[i]f any person attempts a
BUREAU OF JUSTICE STATISTICS, CRIMINAL VICTIMIZATION IN THE
UNITED STATES, 2008 STATISTICAL TABLES tbl. 61 (2010),
http://goo.gl/6NAuIB.
3

JA 70
robbery or murder of another, or attempts to break
open a house in the night time, ... and shall be killed
in such attempt, the slayer shall be acquitted and
discharged.” 4 WILLIAM BLACKSTONE, COMMENTARIES
*180 (emphasis added). “Sergeant William Hawkins’s
widely read Treatise of the Pleas of the Crown,”
Atwater v. City of Lago Vista, 532 U.S. 318, 331 (2001),
likewise explained that “the killing of a Wrong-doer ...
may be justified ... where a Man kills one who assaults
him in the Highway to rob or murder him,” 1 WILLIAM
HAWKINS, A TREATISE OF THE PLEAS OF THE CROWN 71
(1716).
Because the right to self-defense was understood
to extend beyond the home, the right to armed selfdefense naturally was as well. Accordingly, by the late
seventeenth century the English courts recognized
that it was the practice and privilege of “gentlemen to
ride armed for their security.” Rex v. Knight, 90 Eng.
Rep. 330 (K.B. 1686). A century later, the Recorder of
London—a judge and “the foremost legal advisor to
the city,” Parker v. District of Columbia, 478 F.3d 370,
382 n.8 (D.C. Cir. 2007)—opined that “the right of his
majesty’s Protestant subjects, to have arms for their
own defence, and to use them for lawful purposes, is
most clear and undeniable,” Legality of the London
Military Foot-Association (1780), reprinted in WILLIAM
BLIZZARD, DESULTORY REFLECTIONS ON POLICE 59
(1785). These “lawful purposes, for which arms may be
used,” were not limited to the home, for they included
“immediate self-defence, ... suppression of violent and
felonious breaches of the peace, the assistance of the
civil magistrate in the execution of the laws, and the
defence of the kingdom against foreign invaders.” Id.
at 63.

JA 71
That understanding was shared on this side of the
Atlantic. Indeed, “about half the colonies had laws
requiring arms-carrying in certain circumstances,”
such as when traveling. NICHOLAS J. JOHNSON &
DAVID B. KOPEL ET AL., FIREARMS LAW & THE SECOND
AMENDMENT 106-08 (2012) (emphasis added). Plainly,
if the law imposed on individuals a duty to bear arms
“for public-safety reasons,” Heller, 554 U.S. at 601, it
necessarily conferred a corresponding right to do so.
And that understanding endured in the next century,
both before and after the Revolution. Indeed, as Judge
St. George Tucker observed in 1803, “[i]n many parts
of the United States, a man no more thinks, of going
out of his house on any occasion, without his rifle or
musket in his hand, than an European fine gentleman
without his sword by his side.” 5 WILLIAM
BLACKSTONE, COMMENTARIES App. n.B, at 19 (St.
George Tucker ed., 1803). And Tucker made clear that
Congress would exceed its authority were it to “pass a
law prohibiting any person from bearing arms.” 1 id.
App. n.D, at 289.
The practices of the Founding generation confirm
that the right to carry arms was well-established.
George Washington, for example, carried a firearm on
an expedition into the Ohio Country. WILLIAM M.
DARLINGTON, CHRISTOPHER GIST’S JOURNALS 85-86
(1893). Thomas Jefferson advised his nephew to “[l]et
your gun ... be the constant companion of your walks,”
1 THE WORKS OF THOMAS JEFFERSON 398 (letter of
Aug. 19, 1785) (H. A. Washington ed., 1884), and
Jefferson himself traveled with pistols for selfprotection and designed a holster to allow for their
ready
retrieval,
see
Firearms,
Monticello,
https://goo.gl/W6FSpM. Even in defending the British

JA 72
soldiers charged in the Boston Massacre, John Adams
conceded that, in this country, “every private person is
authorized to arm himself; and on the strength of this
authority I do not deny the inhabitants had a right to
arm themselves at that time for their defence.” John
Adams, First Day’s Speech in Defence of the British
Soldiers Accused of Murdering Attucks, Gray and
Others, in the Boston Riot of 1770, in 6 MASTERPIECES
OF ELOQUENCE 2569, 2578 (Hazeltine et al. eds., 1905).
And as an attorney, Patrick Henry regularly carried a
firearm while walking from his home to the
courthouse. HARLOW GILES UNGER, LION OF LIBERTY
30 (2010). This understanding was also reflected in
contemporary judicial decisions. As the panel decision
in Peruta v. County of San Diego concluded after an
exhaustive survey of the early-American case law,
although “some courts approved limitations on the
manner of carry outside the home, none approved a
total destruction of the right to carry in public.” 742
F.3d 1144, 1160 (9th Cir. 2014), vacated, 781 F.3d
1106 (9th Cir. 2015) (en banc); see also, e.g., Nunn, 1
Ga. at 243, 249-51; State v. Reid, 1 Ala. 612, 616-17
(1840); Bliss v. Commonwealth, 12 Ky. (2 Litt.) 90, 9193 (1822).
To be sure, the right to bear arms is not a right to
“carry any weapon whatsoever in any manner
whatsoever and for whatever purpose.” Heller, 554
U.S. at 626. For example, in the prehistory of the
Second Amendment, the medieval Statute of
Northampton provided that “no man great nor small”
shall “go nor ride armed by night nor by day, in fairs,
markets, nor in the presence of the justices or other
ministers, nor in no part elsewhere.” 2 Edw. 3, 258, c.
3 (1328). But contrary to amicus Everytown for Gun

JA 73
Safety’s revisionist version of history, Northampton—
and the analogues adopted on this side of the
Atlantic—did not “broadly prohibit[ ] public carry in
populated places.” Mem. of Everytown for Gun Safety
as Amicus Curiae 7 (Apr. 2, 2018), Doc. 23-3
(“Everytown Amicus”). To the contrary, by the
seventeenth century the courts and commentators had
conclusively interpreted the provision as limited to
“prohibiting the carrying of ‘dangerous and unusual
weapons,’ ” Heller, 554 U.S. at 627—weapons not
protected by the right to keep and bear arms, id. at
623-24, 627—or otherwise “go[ing] armed to terrify the
King’s subjects,” Sir John Knight’s Case, 87 Eng. Rep.
75, 76 (K.B. 1686). And this rule against “riding or
going armed, with dangerous or unusual weapons”
and thereby “terrifying the good people of the land,” 4
WILLIAM BLACKSTONE, COMMENTARIES *148-49, was
not understood as extending to the ordinary carrying
of weapons “usually worne and borne,” WILLIAM
LAMBARD,
EIRENARCHA
135
(1588),
unless
“accompanied with such circumstances as are apt to
terrify the people,” 1 HAWKINS, supra, at 136.
Early American courts and commentators shared
this understanding of the scope of the right to bear
arms in self-defense. For instance, James Wilson, a
leading Framer and Supreme Court Justice, explained
in his widely read Lectures on Law that it was
unlawful only to carry “dangerous and unusual
weapons, in such a manner, as will naturally diffuse a
terrour among the people.” 3 JAMES WILSON, THE
WORKS OF THE HONOURABLE JAMES WILSON 79 (1804).
After all, as another commentator explained, “in this
country the constitution guaranties to all persons the
right to bear arms; then it can only be a crime to

JA 74
exercise this right in such a manner, as to terrify the
people unnecessarily.” CHARLES HUMPHREYS, A
COMPENDIUM OF THE COMMON LAW IN FORCE IN
KENTUCKY 482 (1822); see also State v. Huntly, 25 N.C.
418, 422-23 (1843); Simpson v. State, 13 Tenn. 356,
359-60 (1833). 4
This reading of the Second Amendment persisted
throughout the nineteenth century. Reconstruction
Era views are “instructive” evidence of the Second
Amendment’s scope because they reflect “the public
understanding of [the Amendment] in the period after
its enactment.” Heller, 554 U.S. at 605, 614. And those
who wrote and ratified the Fourteenth Amendment
clearly understood the right to bear arms to protect
the carrying of firearms outside the home for selfdefense.
For decades before the Civil War, the southern
States had schemed at every turn to prevent their
enslaved and free black populations from bearing
arms. An 1832 Delaware law, for example, forbade any
Everytown also cites a handful of laws enacted in the mid-1800s
that required any person who bore arms in public to post a
deposit or “surety” “for keeping the peace” upon complaint of “any
person having reasonable cause to fear an injury, or breach of the
peace,” unless he himself could show that he had “reasonable
cause to fear an assault or other injury, or violence to his person,
or to his family or property.” 1836 Mass. Laws 748, 750, ch. 134,
§16; see Everytown Amicus 11-13. But these surety-style laws
“did not deny a responsible person carrying rights unless he
showed a special need for self-defense. They only burdened
someone reasonably accused of posing a threat. And even he
could go on carrying without criminal penalty. He simply had to
post money that would be forfeited if he breached the peace or
injured others—a requirement from which he was exempt if he
needed self-defense.” Wrenn, 864 F.3d at 661.
4

JA 75
“free negroes [or] free mulattoes to have own keep or
possess any Gun [or] Pistol,” unless they first received
a permit from “the Justice of the Peace” certifying
“that the circumstances of his case justify his keeping
and using a gun.” Act of Feb. 10, 1832, sec. 1, Del.
Laws 180 (1832); see also Robert J. Cottrol & Raymond
T. Diamond, The Second Amendment: Toward an
Afro- Americanist Reconsideration, 80 GEO. L.J. 309,
336-38 (1991) (citing similar laws in Texas,
Mississippi, Louisiana, South Carolina, Maryland,
Virginia, and Georgia). Indeed, Chief Justice Taney
recoiled so strongly from recognizing African
Americans as citizens in the infamous Dred Scott case
precisely because he understood that doing so would
entitle them “to keep and carry arms wherever they
went.” Dred Scott v. Sandford, 60 U.S. (19 How.) 393,
417 (1857).
After the Civil War, these noxious efforts to
suppress the rights of former slaves to carry arms for
self-defense continued. Mississippi’s notorious “Black
Code,” for example, forbade any “freedman, free negro
or mulatto” to “keep or carry fire-arms of any kind.”
An Act To Punish Certain Offences Therein Named,
and for Other Purposes, ch. 23, §1, 1865 Miss. Laws
165. Parallel restrictions were enacted in Louisiana
and Alabama. Cottrol & Diamond, supra, at 344-45.
And in an ordinance strikingly similar in operation to
New York’s “proper cause” law, several Louisiana
towns provided that no freedman “shall be allowed to
carry fire-arms, or any kind of weapons, within the
parish” without the approval of “the nearest and most
convenient chief of patrol.” 1 WALTER L. FLEMING,
DOCUMENTARY HISTORY OF RECONSTRUCTION 279-80
(1906).

JA 76
As the Supreme Court explained at length in
McDonald, the Reconstruction Congress labored
mightily to entomb this legacy of prejudice. See 561
U.S. at 770-77. Congress’s efforts culminated in the
adoption of the Fourteenth Amendment, which
ensured the right of every American, regardless of
race, to “bear arms for the defense of himself and
family and his homestead.” CONG. GLOBE, 39th
Cong., 1st Sess. 1182 (1866) (statement of Sen.
Pomeroy); see also McDonald, 561 U.S. at 775-76.
B. Kachalsky erred in concluding that the
right to carry firearms outside the home
is not at the core of the Second
Amendment.
The right to “carry weapons in case of
confrontation,” Heller, 554 U.S. at 592, is not only
within the scope of the Second Amendment, it lies at
the very core of that guarantee. Heller makes clear
that the right to individual self-defense is “the central
component” of the Second Amendment. Id. at 599.
Given that the Second Amendment’s text, history, and
purposes all show that its protections extend outside
the home, the right to carry firearms “for the core
lawful purpose of selfdefense” necessarily extends
beyond those four walls as well. Id. at 630. “Thus, the
Amendment’s core generally covers carrying in public
for self-defense.” Wrenn, 864 F.3d at 659.
Kachalsky disagreed with this conclusion. While
assuming for the sake of argument “that the
Amendment must have some application in the ...
context of the public possession of firearms,” the
Second Circuit held that bearing arms in public “falls
outside the core Second Amendment protections

JA 77
identified in Heller.” Kachalsky, 701 F.3d at 89, 94.
That reasoning fails for multiple reasons. To begin,
because Kachalsky failed to conduct any meaningful
textual and historical analysis of whether the Second
Amendment applies outside the home, it had little
basis for concluding that the right to bear arms
outside the home “falls outside the core” of the Second
Amendment. Id. at 94. While the Second Circuit’s
decision to “proceed[ ] on this assumption” that the
Second Amendment applies in public, id. at 89, may
have been “meant to be generous to the plaintiffs, by
granting a premise in their favor,” its effect was to
sweep under the rug the overwhelming historical and
textual support, discussed above, for the conclusion
that the right to bear arms in public lies at the very
heart of the Second Amendment. Wrenn, 864 F.3d at
663.
Instead of grappling with the historical evidence
discussed above, Kachalsky instead cited a series of
laws, dating from the nineteenth century and later,
which targeted the carrying of concealed weapons. 5
The only historical restrictions cited by Kachalsky that date to
the founding period—the most relevant historical time frame for
determining the scope of the Second Amendment, see Heller, 554
U.S. at 614—are: (1) scattered eighteenth-century state laws
“prohibit[ing] the use of firearms on certain occasions and in
certain locations” and regulating “the storage of gun powder”;
and (2) the versions of the Statute of Northampton enacted in
North Carolina, Massachusetts, and Virginia. Kachalsky, 701
F.3d at 95 & n.19. The first type of colonial-era restrictions were
also a cornerstone of Justice Breyer’s dissent in Heller, see 554
U.S. at 683-84 (Breyer, J., dissenting), and the majority expressly
rejected the relevance of these narrow and minor limits on firing
arms in certain situations (such as during New Year’s Day
celebrations), concluding that they “provide no support” for
5

JA 78
These laws, according to the Second Circuit, evinced
“a longstanding tradition of states regulating firearm
possession and use in public because of the dangers
posed to public safety.” Kachalsky, 701 F.3d at 94-95.
Not so. While these laws limited the carrying of
concealed firearms—a practice that was considered
dishonorable and especially dangerous by the social
mores of the day—they did so against the background
of freely allowing the open carrying of arms, thus
“le[aving] ample opportunities for bearing arms.”
Wrenn, 864 F.3d at 662.
The fact that these laws left intact the background
right to carry firearms in some manner was absolutely
critical to most of the judicial opinions assessing their
constitutionality. The distinction was relied upon by
courts that upheld this type of law against
constitutional challenge. See State v. Chandler, 5 La.
Ann. 489, 490 (1850) (concealed carry ban “interfered
with no man’s right to carry arms ... ‘in full open view,’
” and thus did not interfere with “the right guaranteed
by the Constitution of the United States”); Aymette v.
State, 21 Tenn. 154, 160-61 (1840); State v. Reid, 1 Ala.
612, 616-17 (1840). And it was also endorsed by the
opinions striking down limitations on carrying
firearms that cut too close to the core. See Nunn, 1 Ga.
at 251 (limitation on “the practice of carrying certain
weapons secretly” was “valid, inasmuch as it does not
across-the-board, significant restrictions, like New York’s here,
id. at 631-33 (majority). And for the reasons discussed above, see
supra, pp. 10-12, Northampton and its colonial and state
analogues were simply not understood as applying to the
carrying of weapons “usually worne and borne” for otherwise
lawful purposes like self-defense. EIRENARCHA, supra, at 135.

JA 79
deprive the citizen of his natural right of self-defence,
or of his constitutional right to keep and bear arms,”
but “prohibition against bearing arms openly” was “in
conflict with the Constitution, and void”); see also
Bliss, 12 Ky. at 91-94. 6 These laws thus provide no
historical pedigree for restrictions, like New York’s,
which prohibit both open and concealed carrying and
thus add up to “a denial of the right altogether.”
Aymette, 21 Tenn. at 161. Had Kachalsky fairly
engaged in the textual and historical analysis
required by Heller, it would have reached the same
conclusion as the two circuits that have treated
seriously with the Second Amendment’s text and
history. See Wrenn, 864 F.3d at 661; Moore, 702 F.3d
at 937, 942. For as shown above, these sources of
authority leave no doubt that this constitutional
guarantee extends outside the home. See supra, Part
I.A. And because that is so, the right to bear arms “for
the core lawful purpose of self-defense,” Heller, 554
U.S. at 630, can be no further from the heartland of
the Second Amendment than the right to keep them.

A few courts from this era upheld concealed carry bans without
relying on this distinction, but as Kachalsky itself notes, they did
so “on the basis of an interpretation of the Second Amendment ...
that conflicts with [Heller.]” 701 F.3d at 91 n.14. Those outlier
decisions are thus “sapped of authority by Heller,” and cannot be
cited as reliable guides to the Second Amendment’s scope. Wrenn,
864 F.3d at 658.

6

JA 80
II. Under Heller, Defendants’ requirement that
law-abiding citizens demonstrate a special
need for self-defense to exercise their
Second Amendment rights is categorically
unconstitutional.
Given that the core of the Second Amendment
extends to armed self-defense outside the home, Heller
makes the next analytical steps clear. Because “[t]he
very enumeration of the right takes out of the hands
of government—even the Third Branch of
Government—the power to decide on a case-by-case
basis whether the right is really worth insisting upon,”
wholesale infringements upon the Amendment’s “core
protection”
must
be
held
unconstitutional
categorically, not “subjected to a freestanding
‘interest-balancing’ approach.” Heller, 554 U.S. at 634.
Defendants’ prohibition is just such an infringement
of core Second Amendment conduct. Accordingly, it is
flatly unconstitutional.
Heller requires per se invalidation of broad bans
that strike at the heart of the Second Amendment. In
Heller, the Supreme Court declined the invitation to
analyze the ban on possessing handguns at issue
under “an interest-balancing inquiry” based on the
“approach ... the Court has applied ... in various
constitutional contexts, including election-law cases,
speech cases, and due process cases,” 554 U.S. at 68990 (Breyer, J., dissenting), ruling instead that the
right to keep and bear arms was “elevate[d] above all
other interests” the moment that the People chose to
enshrine it in the Constitution’s text, id. at 635
(majority opinion). And in McDonald, the Court
reaffirmed that Heller “expressly rejected the

JA 81
argument that the scope of the Second Amendment
right should be determined by judicial interest
balancing.” 561 U.S. at 785 (plurality opinion).
Defendants’ demand that applicants show a need
for self-defense that is “distinguishable from that of
the general community,” Klenosky, 428 N.Y.S.2d at
257, extinguishes the core Second Amendment rights
of typical citizens—who, by definition, cannot
distinguish their need for self-defense from that of the
general population. To be sure, Defendants’ limits
allow individuals who can show “a special need for
self-protection” to carry firearms, if they can
demonstrate that need in advance to the satisfaction
of the government. Id. But the Second Amendment
does not set up a race between law-abiding citizens
and their assailants to the license bureau. For those
whose lives or safety are being threatened, it is cold
comfort to know that they could have carried a firearm
if only they could have documented their “special need
for self-protection” in advance. Surely under the
Second Amendment—which protects the right to bear
arms “in case of confrontation,” Heller, 554 U.S. at 592
(emphasis added)—that scheme turns the right to
bear arms on its head.
Indeed, the State’s demand that a citizen prove to
its satisfaction that he has a good enough reason to
carry a handgun is flatly inconsistent with the very
nature of the Second Amendment right. The existence
of that right is itself reason enough for its exercise. It
is thus no surprise that courts have rejected this kind
of “ask-permission-first” regime across a wide variety
of constitutional rights, reasoning that the
government has failed to honor a right if it demands

JA 82
to know—and assess de novo—the reasons justifying
each occasion of its exercise. See, e.g., First Nat’l Bank
of Boston v. Bellotti, 435 U.S. 765 (1978) (government
cannot condition speech on “a requirement that the
speaker have a sufficiently great interest in the
subject to justify communication”); New York Times
Co. v. United States, 403 U.S. 713, 714 (1971) (prior
restraint
presumptively
unconstitutional);
Employment Div., Dep’t of Human Res. of Oregon v.
Smith, 494 U.S. 872, 887 (1990) (government cannot
“question the centrality” or “plausibility” of religious
convictions); see also Burwell v. Hobby Lobby Stores,
Inc., 134 S. Ct. 2751, 2778 (2014).
In short, as the D.C. Circuit persuasively
concluded, a proper-cause-type requirement that
limits the carrying of firearms outside the home to
those with a “heightened need” for self-defense “is
necessarily a total ban on most ... residents’ right to
carry a gun in the face of ordinary selfdefense needs.”
Wrenn, 864 F.3d at 666. Indeed, such a restriction
“destroys the ordinarily situated citizen’s right to bear
arms not as a side effect of applying other, reasonable
regulations ... , but by design: it looks precisely for
needs ‘distinguishable’ from those of the community.”
Id. Such a prohibition is unconstitutional per se.
III. Kachalsky was wrong to uphold Defendants’
“proper
cause”
restriction
under
intermediate scrutiny.
A. Strict scrutiny should apply.
Even if Defendants’ restrictions were not
categorically unconstitutional, they should at the least
be subjected to the highest level of constitutional
scrutiny. As the Supreme Court has explained, “strict

JA 83
judicial scrutiny [is] required” whenever a law
“impinges upon a fundamental right explicitly or
implicitly protected by the Constitution.” San Antonio
Indep. Sch. Dist. v. Rodriguez, 411 U.S. 1, 17 (1973).
And the right to bear arms is not only enumerated in
the constitutional text; it was also counted “among
those fundamental rights necessary to our system of
ordered liberty” by “those who drafted and ratified the
Bill of Rights.” McDonald, 561 U.S. at 768, 778.
Kachalsky’s application of merely intermediate
scrutiny, by contrast, relegates the Second
Amendment to “a second-class right.” Id. at 780
(plurality).
B. Defendants’ “proper cause” restriction
fails
even
intermediate
scrutiny,
properly applied.
Ultimately determining the correct standard of
scrutiny is immaterial, however, because the “proper
cause” restriction should be struck down under any
level of heightened scrutiny.
1. That is so, first, as a matter of law. By design,
Defendants’ restrictions will reduce Case 1:18-cv00134-BKS-ATB Document 26 Filed 05/07/18 Page 24
of 32 19 firearm violence only by reducing the quantity
of firearms in public. That is “not a permissible
strategy”—even if used as a means to the further end
of increasing public safety. Grace v. District of
Columbia, 187 F. Supp. 3d 124, 148 (D.D.C. 2016),
aff’d sub nom. Wrenn v. District of Columbia, 864 F.3d
650. That conclusion follows directly from the
Supreme Court’s precedents in the secondary-effects
area of free speech doctrine.

JA 84
The Supreme Court has held that government
restrictions on certain types of expressive conduct—
most commonly, zoning ordinances that apply
specifically to establishments offering adult
entertainment—are subject to merely intermediate
scrutiny even though they are contentbased. City of
Renton v. Playtime Theatres, Inc., 475 U.S. 41, 47-51
(1986). But this lesser scrutiny applies only so long as
the purpose and effect of the restrictions is to reduce
the negative “secondary effects” of the expression—
such as the increased crime that occurs in
neighborhoods with a high concentration of adult
theaters—rather than to suppress the expression
itself. Id. at 49. As Justice Kennedy’s controlling
opinion in City of Los Angeles v. Alameda Books, Inc.,
535 U.S. 425 (2002), makes clear, in defending a
restriction as narrowly tailored to further an
important or substantial governmental interest, the
government may not rely on the proposition “that it
will reduce secondary effects by reducing speech in the
same proportion.” Id. at 449. “It is no trick to reduce
secondary effects by reducing speech or its audience;
but [the government] may not attack secondary effects
indirectly by attacking speech.” Id. at 450; see also
Heller v. District of Columbia (Heller III), 801 F.3d
264, 280 (D.C. Cir. 2015); Grace, 187 F. Supp. 3d at
148.
But that is precisely what Defendants have done
here. Their restrictive licensing policies do not
regulate the manner of bearing arms or impose
reasonable training and safety requirements. No,
their purpose and effect is to limit the number of arms
borne in public, and to the extent this leads to a
reduction of gun crime, that is only a byproduct of this

JA 85
suppression of the quantity of core Second
Amendment conduct. As the D.C. Circuit concluded,
limits like Defendants’ “proper cause” restriction
“destroy[ ] the ordinarily situated citizen's right to
bear arms not as a side effect of applying other,
reasonable regulations ... but by design.” Wrenn, 864
F.3d at 666. That is “not a permissible strategy,”
Grace, 187 F. Supp. 3d at 148, under any level of
heightened scrutiny.
2. Even if these objections are set aside, the
heightened need requirement still flunks intermediate
scrutiny, and Kachalsky was still wrong to uphold it.
To survive intermediate scrutiny, a restriction must
be “substantially related to the achievement” of the
government’s objective. United States v. Virginia, 518
U.S. 515, 533 (1996). “The burden of justification is
demanding and it rests entirely on the State.” Id. As
Judge Posner concluded after surveying “the empirical
literature on the effects of allowing the carriage of
guns in public,” that data does not provide “more than
merely a rational basis for believing that [a ban on
public carriage] is justified by an increase in public
safety.” Moore, 702 F.3d at 939, 942. This is confirmed
by experience. Forty-two States do not restrict the
carrying of firearms to a privileged few. See Gun Laws,
NRA-ILA, https://goo.gl/Nggx50. Yet “many years of
evidence across different states and time periods
overwhelmingly rejects” the claim that “permit
holders will use their guns to commit crimes instead
of using their guns for self-defense.” David B.
Mustard, Comment, in EVALUATING GUN POLICY 325,
330 (Jens Ludwig & Philip J. Cook eds., 2003); see also
id. at 330-31. As social scientists who favor gun control
have acknowledged, there would be “relatively little

JA 86
public safety impact if courts invalidate laws that
prohibit gun carrying outside the home, assuming that
some sort of permit system for public carry is allowed
to stand,” since “[t]he available data about permit
holders ... imply that they are at fairly low risk of
misusing guns.” Philip J. Cook et al., Gun Control
After Heller, 56 UCLA L. REV. 1041, 1082 (2009).
Further, even if laws that more freely grant
permits have not been shown to decrease crime, there
is no persuasive evidence that they increase crime—
and that is the proposition Defendants must
substantiate. For instance, in 2004 the National
Academy of Sciences’ National Research Council
(“NRC”) conducted an exhaustive review of the
relevant social-scientific literature. The NRC
concluded that “with the current evidence it is not
possible to determine that there is a causal link
between the passage of right-to-carry laws and crime
rates.” National Research Council, FIREARMS AND
VIOLENCE: A CRITICAL REVIEW 150 (Charles F.
Wellford, John V. Pepper, & Carol V. Petrie eds.,
2005), http://goo.gl/WO1ZNZ. See also Robert Hahn et
al., Firearms Laws and the Reduction of Violence: A
Systematic Review, 28 AM. J. PREVENTATIVE MED.
40, 53-54 (2005), http://goo.gl/zOpJFL (CDC study
concluding that existing evidence does not establish
that more permissive carry regimes “increases rates of
unintended and intended injury”).
Defendants cite several studies in an effort to
shore up the public-safety justification of their ban,
but they fall short. New York’s primary piece of
evidence is an unpublished 2014 study by Abhey
Aneja, John Donahue III, and Alexandria Zhang. But

JA 87
the 2014 Donohue study in fact explicitly affirms the
NRC’s judgment that the evidence is not sufficient to
show any causal link between laws limiting public
carrying of firearms and crime rates. Abhay Aneja,
John J. Donohue III, & Alexandria Zhang, The Impact
of Right to Carry Laws and the NRC Report 80 (Dec.
1, 2014) (unpublished manuscript), available at
http://goo.gl/UOzB9H; see also John J. Donohue et al.,
Right-to-Carry Laws and Violent Crime 44 (June 12,
2017) (unpublished manuscript).
The other studies cited by Defendants add little.
Most concern gun control measures other than
restrictions on the right to carry—such as permitting
requirements for the purchase of firearms—and thus
do not even purport to address carrying outside the
home. See Kara E. Rudolph et al., Association Between
Connecticut’s Permit-to-Purchase Handgun Law and
Homicides, 105 AM. J. PUB. HEALTH 49 (2015); Daniel
Webster et al., Effects of the Repeal of Missouri’s
Handgun Purchaser Licensing Law on Homicides, 91
J. URBAN HEALTH 293 (2014). 7 Another paper is
merely a recapitulation of other research—on the
issue of public carrying, principally the unpublished
Aneja and Donohue study—and thus contributes
Defendants characterize these studies as showing that Missouri
and Connecticut’s repeal of their “handgun licensing laws” was
associated with dramatic increases in firearm homicide rates.
Mem. of Law in Supp. of Defs.’ Mot. to Dismiss the Compl. at 8
(Mar. 26, 2018), Doc. 19-1. What Defendants somewhat
surprisingly fail to mention is that the “handgun licensing laws”
in question governed purchasing firearms, not carrying them in
public—and imposed objective eligibility requirements, not a
discretionary “proper cause”-type restriction like the one
challenged here. These studies are utterly irrelevant.
7

JA 88
nothing to the debate. Webster, et al., Firearms on
College Campuses 15 (Oct. 15, 2016) (unpublished
manuscript). And while the remaining study—
Michael Siegel, et. al., Easiness of Legal Access to
Concealed Firearm Permits and Homicide Rates in the
United States, 107 AM. J. PUB. HEALTH 1923 (2017)—
does at least concern public carrying, like the NRC and
the Donohue study, it explicitly cautions that it does
not find any causal link between more permissive
carry regimes and violent crime. See id. at 1928.
The cursory discussion of the empirical evidence
offered by Kachalsky is even less convincing. The sum
total of the “evidence” discussed by the court in
purportedly conducting intermediate scrutiny was
confined to: (1) naked assertions about “the dangers
inherent in the carrying of handguns in public” that
were “made one-hundred years ago” by New York’s
legislature, 701 F.3d at 97, and (2) unnamed “studies
and data demonstrating that widespread access to
handguns in public increases the likelihood that
felonies will result in death,” id. at 99, that New York
submitted in its briefing—studies which the court did
not feel the need to discuss or even specifically identify.
But a law that “imposes current burdens and must be
justified by current needs,” Shelby Cty., Ala. v. Holder,
570 U.S. 529, 536 (2013)—not by assumptions a
legislature made over a hundred years ago. And
merely invoking the fact that the State “submitted
studies and data” supporting its law in its briefing,
with no actual analysis of those studies or data, hardly
discharges the court’s duty to “assure that, in
formulating its judgments, [the State] has drawn
reasonable inferences based on substantial evidence.”
Kachalsky, 701 F.3d at 97, 99.

JA 89
The lack of evidence that these laws advance
public safety should not be surprising, because violent
criminals will continue to carry guns in public
regardless. As the Supreme Court recently held in the
context of abortion restrictions, “[d]etermined
wrongdoers, already ignoring existing statutes and
safety measures, are unlikely to be convinced to
[change their conduct] by a new overlay of
regulations.” Whole Woman’s Health v. Hellerstedt,
136 S. Ct. 2292, 2313-14 (2016). This is not a novel
proposition. In a passage Thomas Jefferson copied into
his personal quotation book, the influential Italian
criminologist Cesare Beccaria reasoned that laws
forbidding the
wear[ing of] arms ... disarm[] those only who
are not disposed to commit the crime which
the laws mean to prevent. Can it be supposed,
that those who have the courage to violate the
most sacred laws of humanity, and the most
important of the code, will respect the less
considerable and arbitrary injunctions, the
violation of which is so easy, and of so little
comparative importance? ... [Such a law]
certainly makes the situation of the assaulted
worse, and of the assailants better, and
rather encourages than prevents murder.
See Stephen P. Halbrook, What the Framers Intended:
A Linguistic Analysis of the Right To “Bear Arms,” 49
LAW & CONTEMP. PROBS. 151, 154 (1986).
Instead of criminals, it is primarily the lawabiding who are affected by Defendants’ restrictions.
And that effect has very real public-safety costs—costs
that Defendants entirely ignore. Although the number

JA 90
of defensive gun uses is difficult to measure, the
leading study on the issue “indicate[s] that each year
in the U.S. there are about 2.2 to 2.5 million [defensive
uses of guns] of all types by civilians against humans.”
Gary Kleck & Marc Gertz, Armed Resistance to Crime:
The Prevalence and Nature of Self-Defense With a
Gun, 86 J. CRIM. L. & CRIMINOLOGY 150, 164 (1995).
“At least 19 other surveys have resulted in [similar]
estimated numbers of defensive gun uses.” NATIONAL
RESEARCH COUNCIL, supra, at 103. Many of these
defensive gun uses involve carrying firearms in public.
The National Self-Defense Survey indicates that
“anywhere from 670,000 to 1,570,000 [defensive gun
uses] a year occur in connection with gun carrying in
a public place.” Gary Kleck & Marc Gertz, Carrying
Guns for Protection: Results from the National SelfDefense Survey, 35 J. RESEARCH IN CRIME &
DELINQUENCY 193, 195 (1998). Any realistic appraisal
of existing social-scientific data thus leads inexorably
to the conclusion that the “good reason” requirement
cannot be shown to benefit public safety—but it may
well harm it.
3. Finally, even if Defendants’ “proper cause”
restriction did advance public safety, it independently
fails heightened scrutiny because it is not properly
tailored to the government’s asserted goals. While
laws subject to intermediate scrutiny “need not be the
least restrictive or least intrusive means of serving the
government’s interests,” they still must be narrowly
tailored, possessing “a close fit between ends and
means.” McCullen v. Coakley, 134 S. Ct. 2518, 2534-35
(2014) (quotation marks omitted). Here, there is an
utter lack of fit between Defendants’ restrictions and
their purported objective of public safety. After all,

JA 91
“the fact that a person can demonstrate a heightened
need for self-defense says nothing about whether he or
she is more or less likely to misuse a gun.” Grace, 187
F. Supp. 3d at 149. “This limitation will neither make
it less likely that those who meet the [good reason]
requirement will accidentally shoot themselves or
others, nor make it less likely that they will turn to a
life of crime. Put simply, the solution is unrelated to
the problem it intends to solve.” Drake v. Filko, 724
F.3d 426, 454 (3d Cir. 2013) (Hardiman, J.,
dissenting).
IV. The
Second
Circuit’s
rule
against
associational
standing
is
plainly
inconsistent with Supreme Court precedent.
There is no dispute that Plaintiff Nash has
standing. See Compl. ¶¶ 23, 28-29. “Where, as here, at
least one plaintiff has standing, jurisdiction is secure,”
and the Court thus need not address NYSRPA’s
standing to bring suit on behalf of its members.
Kachalsky, 701 F.3d at 84 n.2.
To the extent the Court does reach the issue of
NYSRPA’s standing, Plaintiffs acknowledge that the
Second Circuit’s case law does hold “that an
organization does not have standing to assert the
rights of its members in a case brought under 42
U.S.C. §1983,” Nnebe v. Daus, 644 F.3d 147, 156 (2d
Cir. 2011), and that this Court is not free to depart
from that precedent, see Hildenbrandt, 378 F. Supp.
2d at 48. Plaintiffs contend, however, that this rule is
flatly contrary to the Supreme Court’s precedent. The
Supreme Court has squarely held that “an association
has standing to bring suit on behalf of its members
when: (a) its members would otherwise have standing

JA 92
to sue in their own right; (b) the interests it seeks to
protect are germane to the organization’s purpose; and
(c) neither the claim asserted nor the relief requested
requires the participation of individual members in
the lawsuit.” Hunt v. Washington State Apple Advert.
Comm’n, 432 U.S. 333, 343 (1977). What is more, it
has held this in a case brought under Section 1983.
Warth v. Seldin, 422 U.S. 490, 493, 511, 515 (1975).
The Second Circuit’s outlier approach to associational
standing directly contradicts this binding Supreme
Court precedent and should be repudiated at the
earliest opportunity, by a court with authority to
correct it.
CONCLUSION
For the foregoing reasons, Kachalsky should be
overruled by a court competent to do so.
Dated: May 7, 2018

Respectfully submitted,

David H. Thompson*
Peter A. Patterson*
John D. Ohlendorf*
COOPER & KIRK, PLLC
1523 New Hampshire
Avenue, N.W.
Washington, D.C. 20036
(202) 220-9600
(202) 220-9601 (fax)
dthompson@cooperkirk.com

s/Kathleen McCaffrey Baynes
Kathleen McCaffrey Baynes,
Bar Roll No. 507154
KATHLEEN MCCAFFREY
BAYNES, ESQ., PLLC
Attorney of Record
21 Everett Road
Extension, Suite A-4
Albany, NY 12205
(518) 489-1098
kmb@kmbaynes.com

*Appearing pro hac vice
Attorneys for Plaintiffs

JA 93
Reply to Response to Motion to Dismiss, Letter
from Assistant Attorney General of New York
to Judge B. K. Sannes (May 14, 2018)
Dear Judge Sannes:
Defendants decline to submit a reply
Memorandum of Law. I respectfully point out to the
Court that plaintiffs acknowledge that this Court is
bound by the Second Circuit’s decision in Kachalsky v.
County of Westchester, 701 F.3d 81 (2d Cir. 2012). See,
e.g., Dkt. #1, ¶6; Dkt. #26, Plaintiffs Memorandum in
Opposition to Defendants’ Motion to Dismiss, pp. 1, 5,
24-25. For that reason, those stated in defendants’
opening Memorandum of Law and those set forth in
the Memorandum of Everytown for Gun Safety as
Amicus Curiae in Support of Defendants (Dkt. #25),
defendants’ motion to dismiss should be granted.
The Court’s attention to this matter is
appreciated.
Respectfully,
[handwritten: signature]
Kelly L. Munkwitz
Assistant Attorney General
Bar Roll No. 509910
kelly.munkwitz@ag.ny.gov
c: Kathleen McCaffrey Baynes, Esq. (via ECF)
KATHLEEN MCCAFFREY BAYNES, ESQ., PLLC
21 Everett Road Extension, Suite A-4
Albany, NY 12205
David H. Thompson, Esq.
COOPER & KIRK, PLLC (via email)
1523 New Hampshire Avenue, N.W.
Washington, DC 20036

JA 94
Unopposed Motion for Leave to Amend
Complaint (May 15, 2018)
Pursuant to FED. R. CIV. P. 15 and 21 and Local
Rule 7.1(a)(4), and for the reasons articulated in the
accompanying Affidavit and Memorandum, Plaintiffs
on June 28, 2018, or as soon thereafter as counsel can
be heard, will respectfully move this Court for leave to
amend their Complaint in this action to add Mr.
Brandon Koch as an additional plaintiff. An unsigned
copy of the proposed Amended Complaint is attached
as Attachment A. A redline version of the Amended
Complaint showing the amendments Plaintiffs seek to
make from the current operative Complaint is
attached as Attachment B.
Plaintiffs have consulted with counsel for the
defendants concerning this motion, and the
defendants do not oppose it.
Dated: May 15, 2018
David H. Thompson*
Peter A. Patterson*
John D. Ohlendorf*
COOPER & KIRK, PLLC
1523 New Hampshire
Avenue, N.W.
Washington, D.C. 20036
(202) 220-9600
(202) 220-9601 (fax)
dthompson@cooperkirk.com
*Appearing pro hac vice

s/[handwritten: signature]
Kathleen McCaffrey
Baynes, Bar Roll No. 507154
KATHLEEN MCCAFFREY
BAYNES, ESQ., PLLC
Attorney of Record
21 Everett Road
Extension, Suite A-4
Albany, NY 12205
(518) 489-1098
kmb@kmbaynes.com

JA 95
Affidavit of John D. Ohlendorf (May 15, 2018)
I, John D. Ohlendorf, being duly sworn, hereby
depose and state as follows:
1. I am a citizen of the United States and a
resident and citizen of Virginia. I am over the age of
18, competent to testify, and I make this affidavit upon
personal knowledge.
2. I am appearing in the above-captioned action
pro hac vice, by leave of the Court, as an attorney for
the Plaintiffs.
3. Plaintiffs New York State Rifle and Pistol
Association, Inc. (“NYSRPA”) and Robert Nash
brought this suit on February 1, 2018, to challenge
New York's restrictions on the right to carry firearms
in public.
4. The Defendants moved to dismiss the
Complaint on March 26, and the Parties have recently
completed briefing that motion.
5. In the accompanying motion, Plaintiffs seek
leave to amend their Complaint to add an additional
plaintiff, Brandon Koch. As shown in the proposed
Amended Complaint, which is attached to Plaintiffs'
motion as Attachment A, Mr. Koch alleges facts that
are substantively identical to those alleged by the
current individual Plaintiff, Robert Nash.
6. Also attached to Plaintiffs’ motion, as
Attachment B, is a true and correct redline showing
the changes that Plaintiffs are requesting permission
to make to their Complaint.
7. On May 2, 2018, I reached out to Defendants’
counsel of record, Kelly L. Munkwitz, to inform her of
our intent to seek leave amend our Complaint and to

JA 96
ask Defendants’ position on that request. Ms.
Munkwitz authorized me to represent that
Defendants do no oppose Plaintiffs’ motion for leave to
amend.
8. Given the substantive identity between Mr.
Koch’s allegations and claims and those in the original
Complaint, Plaintiffs submit that the pending Motion
to Dismiss and accompanying briefs would apply to
the Amended Complaint to the same extent as the
current operative Complaint.
[handwritten: signature]
John D. Ohlendorf
Subscribed and sworn before me this 15th day of May, 2018
[handwritten: signature]
NOTARY PUBLIC

[SEAL]

John C. Brown
Notary Public,
District of Columbia
My Commission Expires
6/14/2022

JA 97
Proposed Amended Complaint (May 15, 2018)
Plaintiffs New York State Rifle & Pistol
Association, Inc., Robert Nash, and Brandon Koch
(collectively “Plaintiffs”), by and through the
undersigned attorneys, file this Complaint against the
above-captioned Defendants, in their official
capacities as state and local officials responsible under
New York law for administering and enforcing the
State’s laws and regulations governing the carrying of
firearms outside the home. Plaintiffs seek declaratory
and injunctive relief: a declaration that New York’s
limitation of the right to carry firearms to those who
can satisfy licensing officials that they have “proper
cause” to exercise that right is unconstitutional under
the Second and Fourteenth Amendments to the
United States Constitution, and an injunction
compelling Defendants to refrain from enforcing that
invalid limit and to issue Handgun Carry Licenses to
Plaintiffs or to otherwise allow Plaintiffs to exercise
their right to carry firearms outside the home. In
support of their Complaint against Defendants,
Plaintiffs hereby allege as follows:
INTRODUCTION
1. The Second Amendment to the United States
Constitution guarantees “the right of the people to
keep and bear Arms.” U.S. CONST. amend. II. When
the People, by enacting that amendment, enshrined in
their fundamental charter the right to “carry weapons
in case of confrontation” for the “core lawful purpose
of self-defense,” District of Columbia v. Heller, 554
U.S. 570, 592, 630 (2008), they did not mean to leave
the freedom to exercise that right at the mercy of the
very government officials whose hands they sought to

JA 98
bind. No, “[t]he very enumeration of the right takes
out of the hands of government ... the power to decide
on a case-by-case basis whether the right is really
worth insisting upon.” Id. at 634.
2. In defiance of that constitutional guarantee,
New York has seized precisely the power forbidden it
by the Second Amendment: the power to decide, on a
case-by-case basis, whether an applicant for a license
to “carry weapons in case of confrontation,” id. at 592,
has, in its estimation, shown sufficiently “proper
cause” that a license should be issued, N.Y. PENAL
LAW §400.00(2)(f).
3. Worse still, New York has made clear that a
general desire to carry a handgun for the purpose of
self-defense—“the central component” of the Second
Amendment, Heller, 554 U.S. at 599 (emphasis
added)—is not a sufficiently good reason to exercise
the right. Instead, according to New York, an ordinary
citizen must establish a special need for self-defense
which sets him apart from the general public to obtain
a license from the State to carry a firearm in public for
the purpose of self-defense. That restriction is akin to
a state law concluding that the general desire to
advocate for lawful political change is not sufficient
“proper cause” to exercise the right to free speech, and
it cuts to the very core of the Second Amendment, no
less than such a restriction would gut the First.
4. Indeed, the practical effect of New York’s
“proper cause” requirement is to make it wholly illegal
for typical law-abiding citizens to carry handguns in
public for the purpose of self-defense—for by
definition, these ordinary citizens cannot show that
they face a special danger to their safety.

JA 99
5. Plaintiffs Robert Nash and Brandon Koch are
ordinary, law-abiding citizens of New York who wish
to carry firearms outside the home for the purpose of
self-defense. They have passed all required
background checks and met every other qualification
imposed by New York on the eligibility for a license to
carry a firearm in public for self-defense—except that
like the vast majority of ordinary, law-abiding New
York residents, they cannot establish a special need
for self-protection that is distinct from the general
desire for self-defense. Accordingly, Defendant
McNally determined that Plaintiffs Nash and Koch
have not shown “proper cause” to exercise their Second
Amendment rights, and he refused to grant them
licenses to carry a firearm outside the home for selfdefense. That result simply cannot be squared with
the rights guaranteed by the Second Amendment.
6. Plaintiffs acknowledge that the result they seek
is contrary to Kachalsky v. County of Westchester, 701
F.3d 81 (2d Cir. 2012), but, for the reasons explained
in Wrenn v. District of Columbia, 864 F.3d 650 (D.C.
Cir. 2017), that case was wrongly decided. They
therefore institute this litigation to vindicate their
Second Amendment rights and to seek to have
Kachalsky overruled.
JURISDICTION AND VENUE
7. This Court has subject-matter jurisdiction over
Plaintiffs’ claim under 28 U.S.C. §§1331 and 1343.
8. Plaintiffs seek remedies under 28 U.S.C.
§§1651, 2201, and 2202 and 42 U.S.C. §§1983 and
1988.
9. Venue is proper in this Court under 28 U.S.C.
§1391(b)(1) & (b)(2).

JA 100
PARTIES
10. Plaintiff Robert Nash is a citizen of the United
States and a resident and citizen of the State of New
York. He resides in Averill Park, NY 12018.
11. Plaintiff Brandon Koch is a citizen of the
United States and a resident and citizen of the State
of New York. He resides in Troy, NY 12180.
12. Plaintiff New York State Rifle & Pistol
Association, Inc. (“NYSRPA”) is a group organized to
support and defend the right of New York residents to
keep and bear arms. The New York restrictions on the
public carrying of firearms at issue in this case are
thus a direct affront to NYSRPA’s central mission.
NYSRPA has thousands of members who reside in
New York. Its official address is 90 S. Swan Street,
Suite 395, Albany, New York 12210. Plaintiffs Nash
and Koch are members of NYSRPA. They are two
among many NYSRPA members who have been and
continue to be denied the right to carry a firearm
outside of the home for the sole reason that they
cannot satisfy the State’s “proper cause” requirement.
13. Defendant George P. Beach II is the
Superintendent of the New York State Police. As
Superintendent, he exercises, delegates, or supervises
all the powers and duties of the New York Division of
State Police, which is responsible for executing and
enforcing New York’s laws and regulations governing
the carrying of firearms in public, including
prescribing the form for Handgun Carry License
applications. His official address is New York State
Police, 1220 Washington Avenue, Building 22, Albany,
NY 12226. He is being sued in his official capacity.

JA 101
14. Defendant Richard J. McNally, Jr., is a Justice
of the New York Supreme Court, Third Judicial
District, and a Licensing Officer for Rensselaer
County under N.Y. PENAL LAW §400.00. Pursuant to
N.Y. PENAL LAW §265.00(10), he is responsible for
receiving applications from residents of Rensselaer
County for a license to carry a handgun, investigating
the applicant, and either approving or denying the
application. His official address is Rensselaer County
Courthouse, 80 Second Street, Troy, NY 12180. He is
being sued in his official capacity as a State Licensing
Officer.
FACTUAL ALLEGATIONS
New York’s “Proper Cause” Requirement
15. New York law generally forbids any person to
“possess[ ] any firearm,” N.Y. PENAL LAW §265.01(1),
without first obtaining “a license therefor,” id.
§265.20(a)(3). Violating this ban is a class A
misdemeanor, punishable by a fine of $1,000 or less or
up to a year in prison. Id. §§70.15(1), 80.05(1), 265.01.
Possessing a loaded firearm without a license is a class
C felony, punishable by a fine of up to $5,000 or
between one and fifteen years imprisonment. Id.
§§70.00(2)(c) & (3)(b), 80.00(1), 265.03.
16. New York’s ban is subject to minor exceptions
for active duty members of the military, police officers,
and the like. Id. §265.20. An ordinary member of the
general public who wishes to carry a handgun outside
the home for purposes of self-protection, however, can
only do so if he obtains a license to “have and carry [a
handgun] concealed” (a “Handgun Carry License”),
pursuant to Section 400.00(2)(f) of New York’s Penal
Law. A person seeking such a license must submit an

JA 102
application—on a form approved by Defendant
Beach—to the Licensing Officer for the city or county
where he resides. Id. §400.00(3)(a). No license is
available to authorize the carrying of handguns within
the State openly.
17. To be eligible for a Handgun Carry License, an
applicant must satisfy numerous criteria. For
example, he must be at least 21 years old, must not
have been convicted of any felony or serious offense,
must not be an unlawful user of a controlled
substance, and must not have a history of mental
illness. Id. §400.00(1). Before issuing a license, the
Licensing Officer must conduct a rigorous
investigation and background check, to verify that
each of these statutory requirements is satisfied. Id.
§400.00(4).
18. In addition to these rigorous eligibility and
screening requirements, a law-abiding citizen may
only be granted a Handgun Carry License if he
demonstrates that “proper cause exists for the
issuance thereof.” Id. §400.00(2)(f).
19. In granting a license, some Licensing Officers
note certain restrictions on the license, such as
“hunting and target.” In Rensselaer County, for
instance, Licensing Officials routinely grant licenses
that are marked “hunting and target,” and that they
refer to as “restricted licenses.” These licenses allow
the licensee to carry a firearm only when engaged in
those specified activities. Such a license does not
permit the carrying of a firearm in public for the
purpose of self-defense.
20. While New York law grants local Licensing
Officials some discretion in determining what

JA 103
constitutes “proper cause” for issuance of an
unrestricted Handgun Carry License, this discretion
is cabined by the significant body of New York caselaw defining that term. The courts have determined,
for instance, that “[a] generalized desire to carry a
concealed weapon to protect one’s person and property
does not constitute ‘proper cause.’ ”Application of
O’Connor, 585 N.Y.S.2d 1000, 1003 (N.Y. Co. Ct.
1992). They have further clarified that merely
traveling through “high crime areas ... is too vague to
constitute ‘proper cause’ within the meaning of Penal
Law §400.02(f),” Martinek v. Kerik, 743 N.Y.S.2d 80,
81 (1st Dep’t 2002), and that instead an applicant
must “demonstrate a special need for self-protection
distinguishable from that of the general community or
of persons engaged in the same profession,” Klenosky
v. New York City Police Dep’t, 428 N.Y.S.2d 256, 257
(1st Dep’t 1980), aff’d, 53 N.Y.2d 685 (1981).
21. Accordingly, typical law-abiding citizens of
New York—the vast majority of responsible citizens
who cannot “demonstrate a special need for selfprotection distinguishable from that of the general
community,” id.—effectively remain subject to a flat
ban on carrying handguns outside the home for the
purpose of self-defense.
Defendants’ Refusal to Issue Plaintiffs
Handgun Carry Licenses
22. Plaintiff Robert Nash is an adult citizen and
resident of New York. He is not a law enforcement
official or a member of the armed forces, and he does
not fall within any of the other exceptions enumerated
in N.Y. PENAL LAW §265.20 to New York’s ban on
carrying firearms in public.

JA 104
23. Mr. Nash does, however, possess all of the
qualifications necessary to obtain a Handgun Carry
License that are enumerated in N.Y. PENAL LAW
§400.00(1). For example, he is over 21 years of age, he
has not been convicted of any felony or other serious
offense, and he is not addicted to controlled substances
or mentally infirm. He has also passed all required
background checks.
24. Mr. Nash does not face any special or unique
danger to his life. He does, however, desire to carry a
handgun in public for the purpose of self-defense. Mr.
Nash lawfully owns several handguns which he keeps
in his home to defend himself and his family, and he
would carry a handgun for self-defense when he is in
public, were it not for Defendants’ enforcement of New
York’s ban on the public carrying of firearms. Mr.
Nash is not entitled to a Handgun Carry License by
virtue of his occupation, pursuant to Penal Law
§400.00(2)(b)-(e).
25. In or around September 2014, Mr. Nash
applied to the Licensing Officer for the county where
he resides, Rensselaer County, for a license to carry a
handgun in public. After investigation, Mr. Nash’s
application was granted on March 12, 2015, but he
was issued a license marked “Hunting, Target only”
that allowed him to carry a firearm outside the home
only while hunting and target shooting.
26. Because of these restrictions, Mr. Nash is not
able to carry a firearm outside of his home for the
purpose of self-defense.
27. On September 5, 2016, Mr. Nash requested
the Licensing Officer, Defendant Richard N. McNally,
Jr., to remove the “hunting and target” restrictions

JA 105
from his license and issue him a license allowing him
to carry a firearm for self-defense. In support of this
request, Mr. Nash cited a string of recent robberies in
his neighborhood and the fact that he had recently
completed an advanced firearm safety training course.
Letter from Robert Nash to Richard McNally, Jr.
(Sept. 5, 2016) (attached as Exhibit 1).
28. On November 1, 2016, after an informal
hearing, Defendant McNally denied Mr. Nash’s
request and “determined that the ‘Hunting, Target
only’ restrictions [shall] remain on your carry
concealed permit.” Letter from Richard McNally, Jr.,
to Robert Nash (Nov. 1, 2016) (attached as Exhibit 2).
Defendant
McNally
“emphasize[d]
that
the
restrictions are intended to prohibit you from carrying
concealed in ANY LOCATION typically open to and
frequented by the general public.” Id.
29. Defendant McNally did not determine that
Mr. Nash was ineligible for any of the reasons
enumerated in N.Y. PENAL LAW §400.00(1); indeed, his
eligibility is confirmed by the fact that he continues to
hold a “restricted” license. Instead, Defendant
McNally concluded that Mr. Nash had failed to show
“proper cause” to carry a firearm in public for the
purpose of self-defense, because he did not
demonstrate a special need for self-defense that
distinguished him from the general public.
30. In light of Defendant McNally’s denial of his
request to remove the restrictions on his license, Mr.
Nash continues to refrain from carrying a firearm
outside the home for self-defense in New York. Mr.
Nash would carry a firearm in public for self-defense
in New York were it lawful for him to do so.

JA 106
31. Plaintiff Brandon Koch is an adult citizen and
resident of New York. He is not a law enforcement
official or a member of the armed forces, and he does
not fall within any of the other exceptions enumerated
in N.Y. PENAL LAW §265.20 to New York’s ban on
carrying firearms in public.
32. Mr. Koch does, however, possess all of the
qualifications necessary to obtain a Handgun Carry
License that are enumerated in N.Y. PENAL LAW
§400.00(1). For example, he is over 21 years of age, he
has not been convicted of any felony or other serious
offense, and he is not addicted to controlled substances
or mentally infirm. He has also passed all required
background checks.
33. Mr. Koch does not face any special or unique
danger to his life. He does, however, desire to carry a
handgun in public for the purpose of self-defense. Mr.
Koch lawfully owns at least one handgun which he
keeps in his home to defend himself and his family,
and he would carry a handgun for self-defense when
he is in public, were it not for Defendants’ enforcement
of New York’s ban on the public carrying of firearms.
Mr. Koch is not entitled to a Handgun Carry License
by virtue of his occupation, pursuant to Penal Law
§400.00(2)(b)-(e).
34. In 2008, Mr. Koch was granted a license to
carry a handgun in public by the Licensing Officer for
the county where he resides, Rensselaer County.
However, he was issued a license marked “Hunting &
Target” that allowed him to carry a firearm outside
the home only while hunting and target shooting.

JA 107
35. Because of these restrictions, Mr. Koch is not
able to carry a firearm outside of his home for the
purpose of self-defense.
36. In November of 2017, Mr. Koch requested the
Licensing Officer, Defendant Richard N. McNally, Jr.,
to remove the “hunting and target” restrictions from
his license and issue him a license allowing him to
carry a firearm for self-defense. In support of this
request, Mr. Koch cited his extensive experience in the
safe handling and operation of firearms and the many
safety training courses he had completed. Letter from
Brandon Koch to Richard McNally, Jr. (attached as
Exhibit 3).
37. On January 16, 2018, after an informal
hearing, Defendant McNally denied Mr. Koch’s
request and “determined that the ‘Hunting, Target
only’ restrictions [shall] remain on your carry
concealed permit.” Letter from Richard McNally, Jr.,
to Brandon Koch (Jan. 16, 2018) (attached as Exhibit
4).
38. Defendant McNally did not determine that
Mr. Koch was ineligible for any of the reasons
enumerated in N.Y. PENAL LAW §400.00(1); indeed,
his eligibility is confirmed by the fact that he
continues to hold a “restricted” license. Instead,
Defendant McNally concluded that Mr. Koch had
failed to show “proper cause” to carry a firearm in
public for the purpose of selfdefense, because he did
not demonstrate a special need for self-defense that
distinguished him from the general public.
39. In light of Defendant McNally’s denial of his
request to remove the restrictions on his license, Mr.
Koch continues to refrain from carrying a firearm

JA 108
outside the home for self-defense in New York. Mr.
Koch would carry a firearm in public for self-defense
in New York were it lawful for him to do so.
40. Plaintiff NYSRPA has at least one member
who has had an application for a Handgun Carry
License denied solely for failure to satisfy the “proper
cause” requirement. But for Defendants’ continued
enforcement of the New York laws and regulations set
forth above, that member would forthwith carry a
firearm outside the home for self-defense.
COUNT ONE
42 U.S.C. §1983 Action for Depravation of
Plaintiffs’ Rights under U.S. CONST. amends. II
and XIV
41. Plaintiffs incorporate by reference
allegations of the preceding paragraphs.

the

42. The Second Amendment’s guarantee of “the
right of the people to keep and bear Arms” secures to
law-abiding,
responsible,
adult
citizens
the
fundamental constitutional right to bear arms outside
the home. U.S. CONST. amend. II.
43. This Second Amendment right to bear arms in
public applies against the State of New York under
U.S. CONST. amend. XIV.
44. This Second Amendment right to bear arms in
public cannot be subject to a government official’s
discretionary determination of whether a law-abiding
citizen has “proper cause” to exercise that right.
45. A government restriction that limits the right
to bear arms in public for the purpose of self-defense
to only those few, favored citizens who can
demonstrate that they face a special danger to their

JA 109
life effectively operates as a flat ban on the carrying of
firearms by typical lawabiding citizens, who by
definition cannot demonstrate this kind of atypical
need to bear arms.
46. By infringing the Second Amendment right to
bear arms in public in these ways, the New York laws
and regulations discussed in the foregoing allegations
violate the Second Amendment, which applies to
Defendants by operation of the Fourteenth
Amendment, both facially and as applied to Plaintiffs
Nash and Koch and members of the New York State
Rifle & Pistol Association, Inc., and they are therefore
invalid.
PRAYER FOR RELIEF
47. WHEREFORE, Plaintiffs pray for an order
and judgment:
a. Declaring that New York’s “proper cause”
requirement, as set forth in statutes and regulations
including but not limited to N.Y. PENAL LAW
§400.00(2)(f), violates the Second and Fourteenth
Amendments and is thus devoid of any legal force or
effect;
b. Enjoining Defendants and their employees and
agents from denying unrestricted Handgun Carry
Licenses to applicants on the basis of New York’s
“proper cause” requirement, as set forth in statutes
and regulations including but not limited to N.Y.
PENAL LAW §400.00(2)(f);
c. Enjoining Defendants and their employees and
agents from enforcing the New York laws and
regulations establishing and defining the “proper

JA 110
cause” requirement, including N.Y. PENAL LAW
§400.00(2)(f);
d. Ordering Defendants and their employees and
agents to issue unrestricted Handgun Carry Licenses
to Plaintiffs Robert Nash and Brandon Koch and
members of Plaintiff New York State Rifle & Pistol
Association, Inc.;
e. Awarding Plaintiffs their reasonable costs,
including attorneys’ fees, incurred in bringing this
action, pursuant to 42 U.S.C. §1988; and
f. Granting such other and further relief as this
Court deems just and proper.
Dated: May 15, 2018
David H. Thompson*
Peter A. Patterson*
John D. Ohlendorf*
COOPER & KIRK, PLLC
1523 New Hampshire
Avenue, N.W.
Washington, D.C. 20036
(202) 220-9600
(202) 220-9601 (fax)
dthompson@cooperkirk.com
*Appearing pro hac vice

s/________________________
Kathleen McCaffrey
Baynes, Bar Roll No. 507154
KATHLEEN MCCAFFREY
BAYNES, ESQ., PLLC
Attorney of Record
21 Everett Road
Extension, Suite A-4
Albany, NY 12205
(518) 489-1098
kmb@kmbaynes.com

Attorneys for Plaintiffs

JA 111
Exhibit 3 to Proposed Amended Complaint,
Letter from B. Koch to Hon. R. J. McNally, Jr.
Dear Honorable Judge
My name is Brandon Koch. I write in regard to
having the “HUNTING & TARGET” restrictions
removed from my New York State Pistol License
#C30014 issued by Rensselaer County in January of
2015.
I have resided in Rensselear County since 2011
and have been employed in Rensselear County since
2008 with the NYS Unified Court System Office of
Court Administration Division of Technology. Before
moving to the capital region I studied at the Rochester
Institute of Technology where I earned a Bachelors of
Science in Information Technology for computer
networking and network programming. I was born
and grew up in Batavia NY in Genesse County. I was
introduced to the safe handling and operation of rifles
and shotguns at the age of 10 under the supervision of
my father and both grandfathers whom were lifetime
hunters. I graduated from Batavia High School in
2001 with a New York State Regents Diploma.
I have and continue to be a responsible and lawabiding citizen of Rensselaer County. I understand
that carrying a weapon of any kind is a tremendous
responsibility and is not a decision that should be
taken lightly. Since acquiring my pistol license, I have
taken it upon myself to become proficient with the safe
usage of handguns by utilizing multiple training
courses, personal training sessions and weekly target
practice at "American Tactical Systems", a local gun
range in Green Island since October 2016. I have
taken the following courses that were taught by NRA

JA 112
certified instructors, NYS Basic Pistol Safety Course,
NYS Advanced Pistol Safety course with a focus on
Article 35 and live fire evaluation, Practical Tactics for
Carry Conceal, Utah non-resident pistol permit safety
course, Florida non-resident permit pistol safety
course with live fire evaluation, South Carolina nonresident pistol permit safety course with written test
and live fire evaluation and qualification. I currently
hold non-resident carry conceal permits for the states
of Utah, Florida, South Carolina and New Hampshire.
These permits allow me to carry a concealed firearm
in 33 states.
I fully understand that some circumstances will
dictate that I not carry concealed such as in those
areas prohibited by State or Federal law. I have
consequently purchased a trigger lock and a lockable
storage device specifically designed for handguns that
will allow me to leave my firearm in my vehicle in a
safe manner should the need arise. To protect my
handguns from theft inside my apartment I have
purchased a security safe and have attached it to the
wall framing with two-and-a-half-inch lag screws.
Ammunition is stored separately in locked containers.
I understand fully the immense responsibility as
well as the possible ramifications of carrying a firearm
concealed on my person for lawful purposes. The use
thereof must only be as an absolute last resort.
Because of my t raining, competency and my firm
belief that I am of good moral and ethical character, I
would like to respectfully request my Pistol License be
amended to remove the "HUNTING & TARGET"
restrictions thus allowing for unrestricted carry for
personal protection and all lawful purposes in

JA 113
Rensselear County as well as other counties where it
is also acceptable by law to do so.
Thank you for considering this request.
Sincerely,
Brandon Koch

JA 114
Exhibit 4 to Proposed Amended Complaint,
Letter from Hon. R. J. McNally, Jr. to B. Koch
(Jan. 16., 2018)
Dear Mr. Koch:
This letter reflects that on January 16, 2018 the
Court held a conference for the request that your
restrictions be removed from your pistol/revolver
license application.
While the Court has determined that the
“Hunting, Target only” restrictions remain on your
carry concealed permit, I note that the restrictions DO
ALLOW you to carry concealed for purposes of off road
back country, outdoor activities similar to hunting, for
example fishing, hiking & camping. And you may also
carry to and from work.
Please contact the Pistol Permit Clerk who will
prepare a new permit.
Sincerely,

RJM/mjs
cc: Pistol Permit Clerk

[handwritten: signature]
Richard J. McNally, Jr.
Supreme Court

JA 115
Amended Complaint (N.D.N.Y. May 16, 2018)
Plaintiffs New York State Rifle & Pistol
Association, Inc., Robert Nash, and Brandon Koch
(collectively “Plaintiffs”), by and through the
undersigned attorneys, file this Complaint against the
above-captioned Defendants, in their official
capacities as state and local officials responsible under
New York law for administering and enforcing the
State’s laws and regulations governing the carrying of
firearms outside the home. Plaintiffs seek declaratory
and injunctive relief: a declaration that New York’s
limitation of the right to carry firearms to those who
can satisfy licensing officials that they have “proper
cause” to exercise that right is unconstitutional under
the Second and Fourteenth Amendments to the
United States Constitution, and an injunction
compelling Defendants to refrain from enforcing that
invalid limit and to issue Handgun Carry Licenses to
Plaintiffs or to otherwise allow Plaintiffs to exercise
their right to carry firearms outside the home. In
support of their Complaint against Defendants,
Plaintiffs hereby allege as follows:
INTRODUCTION
1. The Second Amendment to the United States
Constitution guarantees “the right of the people to
keep and bear Arms.” U.S. CONST. amend. II. When
the People, by enacting that amendment, enshrined in
their fundamental charter the right to “carry weapons
in case of confrontation” for the “core lawful purpose
of self-defense,” District of Columbia v. Heller, 554
U.S. 570, 592, 630 (2008), they did not mean to leave
the freedom to exercise that right at the mercy of the
very government officials whose hands they sought to

JA 116
bind. No, “[t]he very enumeration of the right takes
out of the hands of government ... the power to decide
on a case-by-case basis whether the right is really
worth insisting upon.” Id. at 634.
2. In defiance of that constitutional guarantee,
New York has seized precisely the power forbidden it
by the Second Amendment: the power to decide, on a
case-by-case basis, whether an applicant for a license
to “carry weapons in case of confrontation,” id. at 592,
has, in its estimation, shown sufficiently “proper
cause” that a license should be issued, N.Y. PENAL
LAW §400.00(2)(f).
3. Worse still, New York has made clear that a
general desire to carry a handgun for the purpose of
self-defense—“the central component” of the Second
Amendment, Heller, 554 U.S. at 599 (emphasis
added)—is not a sufficiently good reason to exercise
the right. Instead, according to New York, an ordinary
citizen must establish a special need for self-defense
which sets him apart from the general public to obtain
a license from the State to carry a firearm in public for
the purpose of self-defense. That restriction is akin to
a state law concluding that the general desire to
advocate for lawful political change is not sufficient
“proper cause” to exercise the right to free speech, and
it cuts to the very core of the Second Amendment, no
less than such a restriction would gut the First.
4. Indeed, the practical effect of New York’s
“proper cause” requirement is to make it wholly illegal
for typical law-abiding citizens to carry handguns in
public for the purpose of self-defense—for by
definition, these ordinary citizens cannot show that
they face a special danger to their safety.

JA 117
5. Plaintiffs Robert Nash and Brandon Koch are
ordinary, law-abiding citizens of New York who wish
to carry firearms outside the home for the purpose of
self-defense. They have passed all required
background checks and met every other qualification
imposed by New York on the eligibility for a license to
carry a firearm in public for self-defense—except that
like the vast majority of ordinary, law-abiding New
York residents, they cannot establish a special need
for self-protection that is distinct from the general
desire for self-defense. Accordingly, Defendant
McNally determined that Plaintiffs Nash and Koch
have not shown “proper cause” to exercise their Second
Amendment rights, and he refused to grant them
licenses to carry a firearm outside the home for selfdefense. That result simply cannot be squared with
the rights guaranteed by the Second Amendment.
6. Plaintiffs acknowledge that the result they seek
is contrary to Kachalsky v. County of Westchester, 701
F.3d 81 (2d Cir. 2012), but, for the reasons explained
in Wrenn v. District of Columbia, 864 F.3d 650 (D.C.
Cir. 2017), that case was wrongly decided. They
therefore institute this litigation to vindicate their
Second Amendment rights and to seek to have
Kachalsky overruled.
JURISDICTION AND VENUE
7. This Court has subject-matter jurisdiction over
Plaintiffs’ claim under 28 U.S.C. §§1331 and 1343.
8. Plaintiffs seek remedies under 28 U.S.C.
§§1651, 2201, and 2202 and 42 U.S.C.§§1983 and
1988.
9. Venue is proper in this Court under 28 U.S.C.
§1391(b)(1) & (b)(2).

JA 118
PARTIES
10. Plaintiff Robert Nash is a citizen of the United
States and a resident and citizen of the State of New
York. He resides in Averill Park, NY 12018.
11. Plaintiff Brandon Koch is a citizen of the
United States and a resident and citizen of the State
of New York. He resides in Troy, NY 12180.
12. Plaintiff New York State Rifle & Pistol
Association, Inc. (“NYSRPA”) is a group organized to
support and defend the right of New York residents to
keep and bear arms. The New York restrictions on the
public carrying of firearms at issue in this case are
thus a direct affront to NYSRPA’s central mission.
NYSRPA has thousands of members who reside in
New York. Its official address is 90 S. Swan Street,
Suite 395, Albany, New York 12210. Plaintiffs Nash
and Koch are members of NYSRPA. They are two
among many NYSRPA members who have been and
continue to be denied the right to carry a firearm
outside of the home for the sole reason that they
cannot satisfy the State’s “proper cause” requirement.
13. Defendant George P. Beach II is the
Superintendent of the New York State Police. As
Superintendent, he exercises, delegates, or supervises
all the powers and duties of the New York Division of
State Police, which is responsible for executing and
enforcing New York’s laws and regulations governing
the carrying of firearms in public, including
prescribing the form for Handgun Carry License
applications. His official address is New York State
Police, 1220 Washington Avenue, Building 22, Albany,
NY 12226. He is being sued in his official capacity.

JA 119
14. Defendant Richard J. McNally, Jr., is a Justice
of the New York Supreme Court, Third Judicial
District, and a Licensing Officer for Rensselaer
County under N.Y. PENAL LAW §400.00. Pursuant to
N.Y. PENAL LAW §265.00(10), he is responsible for
receiving applications from residents of Rensselaer
County for a license to carry a handgun, investigating
the applicant, and either approving or denying the
application. His official address is Rensselaer County
Courthouse, 80 Second Street, Troy, NY 12180. He is
being sued in his official capacity as a State Licensing
Officer.
FACTUAL ALLEGATIONS
New York’s “Proper Cause” Requirement
15. New York law generally forbids any person to
“possess[ ] any firearm,” N.Y. PENAL LAW §265.01(1),
without first obtaining “a license therefor,” id.
§265.20(a)(3). Violating this ban is a class A
misdemeanor, punishable by a fine of $1,000 or less or
up to a year in prison. Id. §§70.15(1), 80.05(1), 265.01.
Possessing a loaded firearm without a license is a class
C felony, punishable by a fine of up to $5,000 or
between one and fifteen years imprisonment. Id.
§§70.00(2)(c) & (3)(b), 80.00(1), 265.03.
16. New York’s ban is subject to minor exceptions
for active duty members of the military, police officers,
and the like. Id. §265.20. An ordinary member of the
general public who wishes to carry a handgun outside
the home for purposes of self-protection, however, can
only do so if he obtains a license to “have and carry [a
handgun] concealed” (a “Handgun Carry License”),
pursuant to Section 400.00(2)(f) of New York’s Penal
Law. A person seeking such a license must submit an

JA 120
application—on a form approved by Defendant
Beach—to the Licensing Officer for the city or county
where he resides. Id. §400.00(3)(a). No license is
available to authorize the carrying of handguns within
the State openly.
17. To be eligible for a Handgun Carry License, an
applicant must satisfy numerous criteria. For
example, he must be at least 21 years old, must not
have been convicted of any felony or serious offense,
must not be an unlawful user of a controlled
substance, and must not have a history of mental
illness. Id. §400.00(1). Before issuing a license, the
Licensing Officer must conduct a rigorous
investigation and background check, to verify that
each of these statutory requirements is satisfied. Id.
§400.00(4).
18. In addition to these rigorous eligibility and
screening requirements, a law-abiding citizen may
only be granted a Handgun Carry License if he
demonstrates that “proper cause exists for the
issuance thereof.” Id. §400.00(2)(f).
19. In granting a license, some Licensing Officers
note certain restrictions on the license, such as
“hunting and target.” In Rensselaer County, for
instance, Licensing Officials routinely grant licenses
that are marked “hunting and target,” and that they
refer to as “restricted licenses.” These licenses allow
the licensee to carry a firearm only when engaged in
those specified activities. Such a license does not
permit the carrying of a firearm in public for the
purpose of self-defense.
20. While New York law grants local Licensing
Officials some discretion in determining what

JA 121
constitutes “proper cause” for issuance of an
unrestricted Handgun Carry License, this discretion
is cabined by the significant body of New York caselaw defining that term. The courts have determined,
for instance, that “[a] generalized desire to carry a
concealed weapon to protect one’s person and property
does not constitute ‘proper cause.’ ”Application of
O’Connor, 585 N.Y.S.2d 1000, 1003 (N.Y. Co. Ct.
1992). They have further clarified that merely
traveling through “high crime areas ... is too vague to
constitute ‘proper cause’ within the meaning of Penal
Law §400.02(f),” Martinek v. Kerik, 743 N.Y.S.2d 80,
81 (1st Dep’t 2002), and that instead an applicant
must “demonstrate a special need for self-protection
distinguishable from that of the general community or
of persons engaged in the same profession,” Klenosky
v. New York City Police Dep’t, 428 N.Y.S.2d 256, 257
(1st Dep’t 1980), aff’d, 53 N.Y.2d 685 (1981).
21. Accordingly, typical law-abiding citizens of
New York—the vast majority of responsible citizens
who cannot “demonstrate a special need for selfprotection distinguishable from that of the general
community,” id.—effectively remain subject to a flat
ban on carrying handguns outside the home for the
purpose of self-defense.
Defendant’s Refusal to Issue Plaintiff’s
Handgun Carry Licenses
22. Plaintiff Robert Nash is an adult citizen and
resident of New York. He is not a law enforcement
official or a member of the armed forces, and he does
not fall within any of the other exceptions enumerated
in N.Y. PENAL LAW §265.20 to New York’s ban on
carrying firearms in public.

JA 122
23. Mr. Nash does, however, possess all of the
qualifications necessary to obtain a Handgun Carry
License that are enumerated in N.Y. PENAL LAW
§400.00(1). For example, he is over 21 years of age, he
has not been convicted of any felony or other serious
offense, and he is not addicted to controlled substances
or mentally infirm. He has also passed all required
background checks.
24. Mr. Nash does not face any special or unique
danger to his life. He does, however, desire to carry a
handgun in public for the purpose of self-defense. Mr.
Nash lawfully owns several handguns which he keeps
in his home to defend himself and his family, and he
would carry a handgun for self-defense when he is in
public, were it not for Defendants’ enforcement of New
York’s ban on the public carrying of firearms. Mr.
Nash is not entitled to a Handgun Carry License by
virtue of his occupation, pursuant to Penal Law
§400.00(2)(b)-(e).
25. In or around September 2014, Mr. Nash
applied to the Licensing Officer for the county where
he resides, Rensselaer County, for a license to carry a
handgun in public. After investigation, Mr. Nash’s
application was granted on March 12, 2015, but he
was issued a license marked “Hunting, Target only”
that allowed him to carry a firearm outside the home
only while hunting and target shooting.
26. Because of these restrictions, Mr. Nash is not
able to carry a firearm outside of his home for the
purpose of self-defense.
27. On September 5, 2016, Mr. Nash requested
the Licensing Officer, Defendant Richard N. McNally,
Jr., to remove the “hunting and target” restrictions

JA 123
from his license and issue him a license allowing him
to carry a firearm for self-defense. In support of this
request, Mr. Nash cited a string of recent robberies in
his neighborhood and the fact that he had recently
completed an advanced firearm safety training course.
Letter from Robert Nash to Richard McNally, Jr.
(Sept. 5, 2016) (attached as Exhibit 1).
28. On November 1, 2016, after an informal
hearing, Defendant McNally denied Mr. Nash’s
request and “determined that the ‘Hunting, Target
only’ restrictions [shall] remain on your carry
concealed permit.” Letter from Richard McNally, Jr.,
to Robert Nash (Nov. 1, 2016) (attached as Exhibit 2).
Defendant
McNally
“emphasize[d]
that
the
restrictions are intended to prohibit you from carrying
concealed in ANY LOCATION typically open to and
frequented by the general public.” Id.
29. Defendant McNally did not determine that
Mr. Nash was ineligible for any of the reasons
enumerated in N.Y. PENAL LAW §400.00(1); indeed, his
eligibility is confirmed by the fact that he continues to
hold a “restricted” license. Instead, Defendant
McNally concluded that Mr. Nash had failed to show
“proper cause” to carry a firearm in public for the
purpose of self-defense, because he did not
demonstrate a special need for self-defense that
distinguished him from the general public.
30. In light of Defendant McNally’s denial of his
request to remove the restrictions on his license, Mr.
Nash continues to refrain from carrying a firearm
outside the home for self-defense in New York. Mr.
Nash would carry a firearm in public for self-defense
in New York were it lawful for him to do so.

JA 124
31. Plaintiff Brandon Koch is an adult citizen and
resident of New York. He is not a law enforcement
official or a member of the armed forces, and he does
not fall within any of the other exceptions enumerated
in N.Y. PENAL LAW §265.20 to New York’s ban on
carrying firearms in public.
32. Mr. Koch does, however, possess all of the
qualifications necessary to obtain a Handgun Carry
License that are enumerated in N.Y. PENAL LAW
§400.00(1). For example, he is over 21 years of age, he
has not been convicted of any felony or other serious
offense, and he is not addicted to controlled substances
or mentally infirm. He has also passed all required
background checks.
33. Mr. Koch does not face any special or unique
danger to his life. He does, however, desire to carry a
handgun in public for the purpose of self-defense. Mr.
Koch lawfully owns at least one handgun which he
keeps in his home to defend himself and his family,
and he would carry a handgun for self-defense when
he is in public, were it not for Defendants’ enforcement
of New York’s ban on the public carrying of firearms.
Mr. Koch is not entitled to a Handgun Carry License
by virtue of his occupation, pursuant to Penal Law
§400.00(2)(b)-(e).
34. In 2008, Mr. Koch was granted a license to
carry a handgun in public by the Licensing Officer for
the county where he resides, Rensselaer County.
However, he was issued a license marked “Hunting &
Target” that allowed him to carry a firearm outside
the home only while hunting and target shooting.

JA 125
35. Because of these restrictions, Mr. Koch is not
able to carry a firearm outside of his home for the
purpose of self-defense.
36. In November of 2017, Mr. Koch requested the
Licensing Officer, Defendant Richard N. McNally, Jr.,
to remove the “hunting and target” restrictions from
his license and issue him a license allowing him to
carry a firearm for self-defense. In support of this
request, Mr. Koch cited his extensive experience in the
safe handling and operation of firearms and the many
safety training courses he had completed. Letter from
Brandon Koch to Richard McNally, Jr. (attached as
Exhibit 3).
37. On January 16, 2018, after an informal
hearing, Defendant McNally denied Mr. Koch’s
request and “determined that the ‘Hunting, Target
only’ restrictions [shall] remain on your carry
concealed permit.” Letter from Richard McNally, Jr.,
to Brandon Koch (Jan. 16, 2018) (attached as Exhibit
4).
38. Defendant McNally did not determine that
Mr. Koch was ineligible for any of the reasons
enumerated in N.Y. PENAL LAW §400.00(1); indeed, his
eligibility is confirmed by the fact that he continues to
hold a “restricted” license. Instead, Defendant
McNally concluded that Mr. Koch had failed to show
“proper cause” to carry a firearm in public for the
purpose of self-defense, because he did not
demonstrate a special need for self-defense that
distinguished him from the general public.
39. In light of Defendant McNally’s denial of his
request to remove the restrictions on his license, Mr.
Koch continues to refrain from carrying a firearm

JA 126
outside the home for self-defense in New York. Mr.
Koch would carry a firearm in public for self-defense
in New York were it lawful for him to do so.
40. Plaintiff NYSRPA has at least one member
who has had an application for a Handgun Carry
License denied solely for failure to satisfy the “proper
cause” requirement. But for Defendants’ continued
enforcement of the New York laws and regulations set
forth above, that member would forthwith carry a
firearm outside the home for self-defense.
COUNT ONE
42 U.S.C. §1983 Action for Depravation of
Plaintiffs’ Rights under U.S. CONST.
amends. II and XIV
41. Plaintiffs incorporate by reference
allegations of the preceding paragraphs.

the

42. The Second Amendment’s guarantee of “the
right of the people to keep and bear Arms” secures to
law-abiding,
responsible,
adult
citizens
the
fundamental constitutional right to bear arms outside
the home. U.S. CONST. amend. II.
43. This Second Amendment right to bear arms in
public applies against the State of New York under
U.S. CONST. amend. XIV.
44. This Second Amendment right to bear arms in
public cannot be subject to a government official’s
discretionary determination of whether a law-abiding
citizen has “proper cause” to exercise that right.
45. A government restriction that limits the right
to bear arms in public for the purpose of self-defense
to only those few, favored citizens who can
demonstrate that they face a special danger to their

JA 127
life effectively operates as a flat ban on the carrying of
firearms by typical law-abiding citizens, who by
definition cannot demonstrate this kind of atypical
need to bear arms.
46. By infringing the Second Amendment right to
bear arms in public in these ways, the New York laws
and regulations discussed in the foregoing allegations
violate the Second Amendment, which applies to
Defendants by operation of the Fourteenth
Amendment, both facially and as applied to Plaintiffs
Nash and Koch and members of the New York State
Rifle & Pistol Association, Inc., and they are therefore
invalid.
PRAYER FOR RELIEF
47. WHEREFORE, Plaintiffs pray for an order
and judgment:
a. Declaring that New York’s “proper cause”
requirement, as set forth in statutes and
regulations including but not limited to N.Y.
PENAL LAW §400.00(2)(f), violates the Second and
Fourteenth Amendments and is thus devoid of
any legal force or effect;
b. Enjoining Defendants and their employees
and agents from denying unrestricted Handgun
Carry Licenses to applicants on the basis of New
York’s “proper cause” requirement, as set forth in
statutes and regulations including but not limited
to N.Y. PENAL LAW §400.00(2)(f);
c. Enjoining Defendants and their employees
and agents from enforcing the New York laws and
regulations establishing and defining the “proper

JA 128
cause” requirement, including N.Y. PENAL LAW
§400.00(2)(f);
d. Ordering Defendants and their employees
and agents to issue unrestricted Handgun Carry
Licenses to Plaintiffs Robert Nash and Brandon
Koch and members of Plaintiff New York State
Rifle & Pistol Association, Inc.;
e. Awarding Plaintiffs their reasonable costs,
including attorneys’ fees, incurred in bringing this
action, pursuant to 42 U.S.C. §1988; and
f. Granting such other and further relief as
this Court deems just and proper.
Dated: May 16, 2018

Respectfully submitted,

David H. Thompson*
Peter A. Patterson*
John D. Ohlendorf*
COOPER & KIRK, PLLC
1523 New Hampshire
Avenue, N.W.
Washington, D.C. 20036
(202) 220-9600
(202) 220-9601 (fax)
dthompson@cooperkirk.com

s/Kathleen McCaffrey Baynes
Kathleen McCaffrey Baynes,
Bar Roll No. 507154
KATHLEEN MCCAFFREY
BAYNES, ESQ., PLLC
Attorney of Record
21 Everett Road
Extension, Suite A-4
Albany, NY 12205
(518) 489-1098
kmb@kmbaynes.com

*Pro hac vice
application forthcoming
Attorneys for Plaintiffs

